                                                    SENSITIVE BUT UNCLASSIFIED



                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General


                                                 Office of Inspections

                                    Compliance Followup Review of
                                 Embassy Bangkok and Consulate General
                                         Chiang Mai, Thailand

                                             Report Number ISP-C-12-33A, June 2012




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


                  PURPOSE, SCOPE, AND METHODOLOGY
                 OF THE COMPLIANCE FOLLOW-UP REVIEW

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General (OIG) for
the U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

        The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Compliance followup reviews (CFR) cover three broad areas, consistent with Section
209 of the Foreign Service Act of 1980:

       •   Policy Implementation: whether policy goals and objectives are being effectively
           achieved; whether U.S. interests are being accurately and effectively represented; and
           whether all elements of an office or mission are being adequately coordinated.

       •   Resource Management: whether resources are being used and managed with
           maximum efficiency, effectiveness, and economy and whether financial transactions
           and accounts are properly conducted, maintained, and reported.

       •   Management Controls: whether the administration of activities and operations meets
           the requirements of applicable laws and regulations; whether internal management
           controls have been instituted to ensure quality of performance and reduce the
           likelihood of mismanagement; whether instance of fraud, waste, or abuse exist; and
           whether adequate steps for detection, correction, and prevention have been taken.

        The Office of Inspections may perform on-site CFRs to verify whether agreed-upon
corrective actions for recommendations issued in previous reports were fully and properly
implemented and to provide OIG with a quality assurance assessment of its work.

METHODOLOGY

       In conducting this compliance follow-up review, the inspectors have: 1) reviewed the
previous inspection report and the reported corrective actions; 2) distributed survey instruments to
inspected entity(s) and compiled and analyzed the results to measure and report changes in the
period between the previous inspection and this CFR; 3) conducted on-site interviews and
reviewed and collected documentation to substantiate reported corrective actions; 4) addressed
new, significant deficiencies or vulnerabilities identified in the CFR survey results and during the
course of the on-site CFR and, where appropriate, issued new recommendations; and, 5) discussed
the substance of the draft CFR report substance of the draft CFR report at the final meeting with
the head of the inspected bureau/office or post.



                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


                                Table of Contents
Key Judgments                                                      1
Background                                                         2
Evaluation of Compliance                                           3
Leadership Issues                                                  4
Policy Advocacy and Reporting Issues                               7
  Reporting                                                        7
  Environment, Science, Technology, and Health Issues              9
  Increasing Efficiency                                            9
  Language-Designated Positions                                   10
Public Diplomacy Issues                                           12
Consular Issues                                                   13
  American Citizens Services                                      13
  Immigrant Visas                                                 14
  Consular Personnel Issues                                       15
  Consular Files                                                  16
  Consular Space Issues                                           16
Consulate General Chiang Mai                                      18
Management Issues                                                 19
  Management Section                                              19
  Human Resources                                                 20
  Financial Management                                            21
  International Cooperative Administrative Support Services       22
  Facilities Management                                           22
  General Services Office                                         22
  Information Management                                          23
  Quality of Life                                                 23
  Management Controls                                             24
List of Compliance Followup Review Recommendations                25
List of Informal Recommendations                                  28
Principal Officials                                               29
Abbreviations                                                     31
Appendix I: Status of 2010 Inspection Formal Recommendations      32
Appendix II: Status of 2010 Inspection Informal Recommendations   52




                                       iii
                           SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Key Judgments
   •   A new Ambassador and a new deputy chief of mission (DCM) since the 2010 inspection
       lead a cohesive and well-functioning interagency team. Morale is high.

   •   The Ambassador’s emphasis on public diplomacy, especially a trailblazing use of social
       media, effectively promotes the U.S. foreign policy agenda in Thailand.

   •   The consular section has excellent leadership, in contrast with the situation the OIG team
       found in 2010. Although the section works efficiently, it should change some processes
       to enhance customer service and conform with regulations.

   •   The greatest staffing need is for a mid-level management officer position, which could be
       solved by converting an entry-level officer (ELO) position. The management section
       staffing has not grown commensurate with the overall growth of the mission. Despite
       that, the management section is highly successful in supporting the mission.

   •   The Compliance Followup Review (CFR) determined that the embassy had implemented
       or otherwise closed 89 of the 98 recommendations (formal and informal) from the 2010
       inspection. The CFR revised and reissued nine recommendations.

All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where OIG did not identify problems that need to be corrected.

The CFR took place in Washington, DC, between January 3 and 27, 2012; in Bangkok, Thailand,
between February 9 and 29, 2012; in Udorn, Thailand, on February 21, 2012; and in Chiang Mai,
Thailand, between February 21 and 23, 2012. (b) (6)




                                          1
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Background
       The OIG inspection of Embassy Bangkok in May 2010 determined that the mission was
meeting its goals and objectives and satisfying Washington end users. However, inspectors also
found that the Ambassador’s abilities to lead and manage one of the Department of State’s
(Department) largest and most complex regional support platforms fell short of mission
requirements. Six months after the inspection, a new Ambassador with senior-level leadership
and management experience assumed charge in Bangkok. In the fall of 2011, the new
Ambassador ably led the embassy community through disastrous floods, some of the worst in a
century in Thailand, which put large areas of the country and the capital under water.

        Hampered by political violence and social unrest that shut down the embassy and
paralyzed the capital, inspectors in 2010 were unable to make a thorough examination of the
general services office, financial management office, and some human resources functions. In
addition to evaluating compliance with the specific recommendations of the 2010 inspection, this
report fills in those gaps.




                                          2
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Evaluation of Compliance
        The CFR team found that Embassy Bangkok had complied with most of the formal and
informal recommendations from the 2010 inspection. A CFR automatically closes all formal and
informal recommendations from the inspection, but these may be reopened, revised, and/or
reissued by the CFR, as appropriate. A complete list of the compliance status of all formal
recommendations from the 2010 inspection is in Appendix I of this report. A complete list of the
status of all informal recommendations from that inspection is in Appendix II of this report.

       Of the 66 formal recommendations in the 2010 report, 60 were closed before the CFR, 5
were resolved/open before the CFR, and 1 was unresolved before the CFR.

        The CFR team determined that 55 of the 60 formal recommendations that had been
closed before the CFR remained closed as a result of the CFR. The team reopened the remaining
five recommendations that had been closed before the CFR. Recommendation 2 on posting
biographic files on Web-based services was revised and reissued as Recommendation CFR 4.
Recommendation 6 on reinforcing emails and informal messages with cables was revised and
reissued as Recommendation CFR 3. Recommendation 8 on maintaining and retiring files was
revised and reissued as Recommendation CFR 5. Recommendation 12 on grants training for the
bilateral environment, science, technology, and health officer was revised and reissued as
Recommendation CFR 7. Recommendation 23 on the staffing of Consulate General Chiang Mai
was revised and reissued as Recommendation CFR 21.

        Five formal recommendations had been resolved/open before the CFR. The CFR team
closed four of those recommendations (Recommendations 26, 45, 63, and 64). The remaining
resolved/open recommendation was Recommendation 22. The team revised and reissued that
recommendation on updating the position descriptions of locally employed (LE) staff in the visa
units of the consular section as Recommendation CFR 15.

        The one recommendation that had been unresolved before the CFR was Recommendation
16 about grants training for officers and LE staff of the public affairs section who were grants
officer’s representatives. The CFR team closed that recommendation as implemented.

        Of the 32 informal recommendations, the CFR team closed 28. The team revised and
reissued four informal recommendations as formal recommendations. Informal Recommendation
11 on returning immigrant visas by mail was revised and reissued as Recommendation CFR 14.
Informal Recommendation 12 on applicants returning immigrant visa documents by mail was
revised and reissued as Recommendation CFR 13. Informal Recommendation 13 on
appointments for American citizens services was revised and reissued as Recommendation CFR
11. Informal Recommendation 14 on a telephone tree for the American citizens services unit of
the consular section was revised and reissued as Recommendation CFR 12.




                                          3
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Leadership Issues
        The embassy has been headed since January 2011 by a career Ambassador on her third
assignment as Chief of Mission. Her tours as Ambassador and her experience in senior staff
positions in the Department of State and the National Security Council prepared her well to lead
one of the largest U.S. embassies in the world and to direct a country team that includes
representatives of more than 30 U.S. Government departments and agencies. The embassy
community recognizes the Ambassador’s skills in policy strategy, tactics, and advocacy of U.S.
interests. Her management and coordination of the embassy’s human and material resources is
admired and emulated. The Ambassador’s exemplary public outreach and her use of social media
technologies have given her face recognition and a high level of public attention. She uses this
platform to push ahead vigorously on U.S. bilateral and regional objectives in Thailand.

        Thailand is a dependable partner in the fight against terrorism and an influential regional
economic and political leader. It collaborates with the United States on security, law
enforcement, health, refugee, and environmental programs. The country is also an attractive
location for regional support operations, and more than half of the embassy’s 2,000 employees
work on tasks related to regional objectives. The Ambassador has set becoming the U.S.
Government hub for Asia as the embassy’s number one goal and pays considerable attention to
the activities of the regional elements of the mission. The U.S. Government’s “pivot” to Asia and
our growing engagement with Southeast Asia, augmented by possible requirements in Burma,
suggest Embassy Bangkok will continue to grow. The Ambassador is aware she must manage
this growth in an environment of limited resources.

        To advance the mission’s second goal of bilateral prosperity and environmental
sustainability, the Ambassador actively supports the President’s National Export Initiative, the
Secretary of State’s Lower Mekong Initiative, and the Thai-U.S. Creative Partnership, which
highlights U.S. innovation. Elections in July 2011 produced a new government with a solid
mandate. The Ambassador champions activities to strengthen democratic institutions and civil
society, another core mission objective. She has worked with the new government to reinvigorate
Thailand’s regional leadership and explored new bilateral cooperation, including a strategic
dialogue to be launched in Washington in June. The Ambassador has opened training sessions
that help Thailand build an effective criminal justice system; visited camps to draw attention to
refugee protection efforts; participated in events to showcase joint programs to mitigate health
threats; and expanded outreach during the floods and recent terrorist threats to inform and advise
the tens of thousands of U.S. citizens in Thailand.

       The Ambassador’s use of social media makes her stand out in Thailand. Almost 30,000
Thai receive her personal tweets; retransmission by the embassy’s Twitter feed extends her
immediate reach by another 40,000. She also has a Facebook page and a blog. To accommodate
the Thai preference for broadcast rather than print news and opinion, the Ambassador posts
video commentary on YouTube for the local television channels to pick up. Although the
terseness required by Twitter has on occasion generated some public misunderstanding, the
Ambassador’s skillful management of her public persona is a huge asset to the mission.

       A strong DCM, who brings front office experience, prior service in Thailand, and
language skills to the job, ably supports the Ambassador. The DCM’s meticulous attention to
                                                4
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

detail and ability to operationalize the Ambassador’s vision complements the Ambassador’s
broad and enterprising outlook. The excellent marks the Ambassador and DCM individually
received for leadership and management capabilities in the CFR team’s preinspection survey of
American direct-hire employees were reiterated in laudatory comments in interviews conducted
at post. The partnership in the front office is regarded by employees as close, transparent, and a
plus for the mission. A number of the most senior and well-traveled section chiefs in the
Department and other agencies told the CFR team that this front office team is either the best or
among the best leadership teams in their experience.

        The Ambassador and DCM share a concern for the welfare of the embassy community
and a common emphasis on high ethical and professional standards. Both articulate their goals
and expectations clearly to the mission and require (and receive) a high-quality product. The
front office’s informal style, openness to dissent, and encouragement of initiative invite
creativity and allow feedback and contrary opinion to flow in both directions. The dialogue
between the front office and the rest of the mission is dense and constant. Employees told
inspectors it was exciting and invigorating. There is wide agreement throughout the embassy that
the front office is accessible, responsive, and supportive.

        The Ambassador is a decisive and self-aware leader with a high energy level. Employees
understand what she wants from them. Coordination among sections and agencies at post is tight,
fast, and collegial. The Ambassador and the DCM expect members of the country team to
collaborate and to function on whole-of-government principles, and they do. A solid structure of
joint meetings in various configurations promotes team cohesion and provides ample face time
with the Ambassador and DCM. The Ambassador uses the weekly country team meeting,
attended by almost 50 section and agency representatives, to outline her views on current
developments and to highlight opportunities for useful collaboration. A smaller group of senior
advisors meets weekly with the front office for brainstorming and decisionmaking. Under the
DCM’s direction, monthly cluster meetings in a variety of substantive and functional fields bring
key players together. Both the Ambassador and the DCM also meet regularly with section chiefs
and most agency representatives. Members consider the meeting structure efficient and valuable.

        Front office attentiveness to the welfare of the employees has created strong bonds of
loyalty, trust, and shared purpose. During the recent floods, the front office made taking care of
the staff the primary mission goal. Although some LE staff had unrealistic expectations about
what restitution or assistance the United States would provide, the front office’s responsiveness
and empathy left many grateful. The Ambassador has taken other actions to knit the mission
together. During the CFR, the Ambassador hosted a ceremony at her residence to honor the
contract employees of the embassy, such as the char force, who are often invisible. She recently
implemented a highly popular employee of the month program to spotlight special contributions.
The Ambassador and the DCM make frequent informal visits to offices in the embassy’s central
compound and make an effort to visit the mission’s many off-compound sites periodically. The
community appreciates front office attendance at all embassy social events and the alacrity of the
Ambassador and the DCM to offer their residences for mission social activities. The elected LE
staff association meets quarterly with the Ambassador and/or the DCM to air concerns and
engage in give and take. A recent front office initiative to meet periodically with LE staff in the
individual sections has been received warmly.


                                           5
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        An active and demanding Ambassador requires an active and productive support
structure. The Ambassador’s extremely full agenda places considerable drafting and
organizational responsibilities on the mission, particularly on the political, economic,
transnational crime, and public diplomacy sections. The CFR team found that officers in a
number of sections routinely put in long hours, mostly out of genuine enthusiasm to support the
Ambassador’s objectives and a desire to meet high-quality standards. The long workdays put in
by the Ambassador and the DCM, further extended by mobile communication, also tend to
encourage overtime. The front office is aware of these tendencies and is considering steps to
encourage a healthy life/work balance, such as reducing the memoranda for second-tier events
and limiting the use of nonurgent emails outside office hours.

         The dynamism of the front office requires a staff assistant to manage the paper flow and
facilitate other activities. The staff aide position was abolished many years ago. The Ambassador
has coped with the lack of a formal staff assistant position by rotating ELOs from other sections
through the front office in 3-month intervals. Although it does provide useful professional
training to several ELOs a year, this practice does not allow for continuity in the front office and
comes at the expense of the offices providing an ELO. The CFR team believes the embassy
needs a formal staff assistant position at the ELO level.

Recommendation CFR 1: Embassy Bangkok, in coordination with the Bureau of East Asian
and Pacific Affairs and the Bureau of Human Resources, should implement a solution to provide
the embassy a formal entry-level staff aide position. (Action: Embassy Bangkok, in coordination
with EAP and DGHR)

        Although there is no formal program for them, the embassy’s 25 ELOs and entry-level
specialists benefit from personal attention from the front office, which appoints them to serve on
mission projects and as visit control officers. Particularly noteworthy is the practice of cross-
training first- and second-tour officers by providing them opportunities to serve out of their
assigned positions or even with other agencies for short periods. The Ambassador and the DCM
have hosted brownbag events for the entry-level employees.




                                           6
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Policy Advocacy and Reporting Issues
        The strength of Embassy Bangkok’s leadership, personnel, and interagency coordination
greatly enhance the success of its policy advocacy and public diplomacy outreach, with one
policymaker calling it a “model post.” An impressive array of interagency programs advances a
broad range of U.S. global, regional, and bilateral interests, which are well captured in the
Mission Strategic Resource Plan. Since the 2010 inspection, the Department program sections
have increased cooperation with other agencies at post to further these goals. They also devote
considerable effort to supporting the Ambassador’s outreach and visiting officials. Reporting is
well coordinated and reflects the Ambassador’s priorities.

        The four units of the political section function largely autonomously but collegially and
well. The new political counselor was unanimously praised for his empowering management
style and for expanding support to the two units with regional responsibilities. The economic
section, with an embedded environment, science, technology, and health unit, is doing a
remarkable job handling an increasingly dynamic operational tempo with a growing commercial
portfolio. The economic counselor skillfully and strategically directs her staff. The transnational
crime affairs section, headed by its only U.S. direct-hire employee, has made important strides in
increasing interagency law enforcement cooperation, capitalizing on programming synergies to
increase the impact of each program dollar.

Reporting

        Washington endusers complimented the mission’s responsiveness and political and
economic reporting, but some would like to see more frequent analytical reporting on a number
of internal political issues, including perspectives from Consulate General Chiang Mai. During
the CFR, the political section finalized its travel plan, drafted a reporting plan, began work on a
representation budget, and started using a shared Outlook calendar. The political section also
proposed ways to increase the effectiveness of its coordination with political staff in Consulate
General Chiang Mai. Both the political and economic sections would appreciate more regular
feedback from the Department on their reporting.

        The political section is using its ELOs and eligible family members (EFM) well, but it
could take better advantage of its experienced LE staff members, who are effectively researching
issues but producing little independent reporting. Some have overlapping portfolios not clearly
aligned to those of the American staff. The section’s senior specialist is preoccupied by
supervisory responsibilities. One of the political assistants spends most of her time preparing a
daily press summary that may no longer be essential. The administrative assistant, who could be
reporting, is performing a number of duties that would be handled more efficiently by the
political specialists. Few meetings are held in which LE staff members have the opportunity to
present their analyses of events.

Recommendation CFR 2: Embassy Bangkok should differentiate clearly the portfolios of
political section locally employed staff members and update position descriptions accordingly,
specifying reporting and backup responsibilities. (Action: Embassy Bangkok)


                                           7
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        The embassy has partially complied with Recommendation 6 in the 2010 report in that it
is no longer sending emails reporting developments, analyzing trends, and offering scenarios and
suggestions for U.S. policymakers that are not captured in front channel reporting. However, the
embassy still transmits valuable reporting in its daily official-informal message to the regional
bureau when that information or commentary does not fit the criteria for front channel reporting.
Many Washington endusers do not receive and cannot retrieve these official-informal messages.
According to the Foreign Affairs Handbook (FAH), in 5 FAH-1 H-216.3, such messages are
record traffic and must not be used to submit economic or political reporting. To make such
reporting accessible to other agencies, the embassy could use the Intelink Web pages and portals
for Thailand.

Recommendation CFR 3: Embassy Bangkok should submit by record emails reporting
relevant to policy interests that is not transmitted in front channel cables. (Action: Embassy
Bangkok)

        The embassy has taken a number of steps to improve its biographic files since the 2010
inspection. Prior to and during the CFR, several sections adopted a common biographic template
and a naming convention. The embassy designated a new biographic information coordinator
and alternate coordinator in March 2012. However, the embassy still lacks a functioning central
biographic file for information on foreign nationals, official or private, who directly or indirectly
influence domestic and foreign policy in their countries, as specified in the Foreign Affairs
Manual (FAM), 2 FAM 113.3 b. (1). The political and economic sections have more than 500
Unclassified and Sensitive But Unclassified biographic files stored in folders on shared computer
drives that are accessible only to section employees.

        In compliance with Recommendation 2 in the 2010 inspection report, the political and
economic sections uploaded a number of Unclassified and Sensitive But Unclassified files to
Intellipedia on ClassNet. There has been no demand for classified biographies over the last
several years, however. Given the time required to transfer biographic files to Intellipedia and
then maintain them on two systems, it would be more efficient for the embassy to move its
Unclassified and Sensitive but Unclassified biographic files to Diplopedia or SharePoint.

Recommendation CFR 4: Embassy Bangkok should create a functioning central biographic file
accessible to Department of State personnel. (Action: Embassy Bangkok)

        In compliance with Recommendation 8 of the 2010 inspection report, the political section
assembled files and retired official records, including emails. It is now maintaining its files. The
economic section has assembled files but has not yet started to create record emails or retire
official records. This recommendation has been revised and reissued.

Recommendation CFR 5: Embassy Bangkok should implement procedures to ensure that the
economic section creates record emails and retires official records, in accordance with
Department of State standards. (Action: Embassy Bangkok)




                                           8
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Environment, Science, Technology, and Health Issues

        The FS-02 regional environmental officer covers 15 East and Southeast Asia countries
from Bangkok, travelling 30 percent of the time. Unlike most regional environmental officers, he
is rated by the economic counselor rather than the DCM. This arrangement is working well,
complemented by a review from an office director in the Bureau of Oceans and International
Environmental and Scientific Affairs. The economic counselor and front office are aware of the
need to minimize the amount of purely bilateral work the officer performs.

         The section has a new bilateral environment, science, technology, and health officer
position, which is designated at the FS-02 level. The position was ceded to be filled by ELOs for
two assignment cycles. The incumbent is an ELO who reports to the regional environmental
officer. This arrangement is effective, but when an FS-02 officer fills the bilateral officer
position, that officer will report to the economic counselor. Frequent communications between
the bilateral and regional officer untangle their overlapping portfolios. Potential for problems
exists if the boundaries between the two jobs are not clearly defined.

Recommendation CFR 6: Embassy Bangkok, in coordination with the Bureau of Oceans and
International Environmental and Scientific Affairs, should delineate in writing the portfolio of
the regional environmental officer and that of the bilateral environment, science, technology, and
health officer. (Action: Embassy Bangkok, in coordination with OES)

        The embassy funds an EFM to support the regional environmental officer. The EFM’s
portfolio is not as well defined as the portfolios of other economic section staff members, who
are struggling to manage a growing workload.

       Informal CFR Recommendation 1: Embassy Bangkok should assess the needs of the
       environment, science, technology, and health section and revise the eligible family
       member’s portfolio accordingly.

        The bilateral environment, science, technology, and health officer should have grants
training so that he can fulfill properly his responsibilities as grants officer’s representative. This
training was the subject of Recommendation 12 of the 2010 inspection report. He was scheduled
to complete grants training in Bangkok in February 2012, but the training course was cancelled.
This recommendation is revised and reissued.

Recommendation CFR 7: Embassy Bangkok should require the bilateral environment, science,
technology, and health officer to complete grants training. (Action: Embassy Bangkok)

Increasing Efficiency

        Many officers in the three sections have heavy workloads. Although they are excited to
contribute to a dynamic mission, the majority would like to establish a better work-life balance,
particularly during noncrisis periods. Using collaboration tools such as SharePoint more
effectively would enhance efficiency within the mission and improve coordination with
Washington. The political section does not have a SharePoint site; the economic section and
transnational crime affairs section have rudimentary and obsolete sites.
                                            9
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



       Informal CFR Recommendation 2: Embassy Bangkok should develop fully functioning
       SharePoint sites for the political, economic, and transnational crime affairs sections.

        The embassy has more than 20,000 records in its contact management database, which it
has used for 14 years. Under current procedures, sections submit proposed invitees and their
contact information for each event. The protocol section then must verify and update all the
records. This is a wasteful and time-consuming duplication of efforts in sections already under
time pressure. It is particularly challenging for the embassy to prepare for the July 4 reception to
which 1,200 people are invited. The embassy has a trainer and a programmer who can train
section staff to use the database.

Recommendation CFR 8: Embassy Bangkok should develop a standard operating procedure
for entering and updating records in its mission contact management database and implement a
plan to train staff from each section to use the database effectively. (Action: Embassy Bangkok)

Language-Designated Positions

        Strong Thai language skills are necessary for those serving at Consulate General Chiang
Mai, those working in the consular section in Bangkok, and those who work frequently or
directly with Thais outside Bangkok. Thai is not generally needed by officers who meet with
contacts in Bangkok. The Department dropped the language designation for the DCM position
during the last assignments cycle. During the CFR, embassy staff identified additional positions
that only require the 6-week familiarization course. These include the head of the political-
external unit; the trade and investment officer; the bilateral environment, science, technology,
and health officer; the transnational crime affairs director; and the ELO energy and
transportation officer. The CFR team concurred with these assessments.

Recommendation CFR 9: Embassy Bangkok should submit a new certification to the Bureau
of Human Resources specifying which language-designated positions are essential to advance
foreign policy objectives. (Action: Embassy Bangkok)

         Thai is challenging to learn to speak and even more difficult to learn to read. As a result,
officers reported that the Foreign Service Institute focuses the last quarter of instruction on
reading. A number of officers reported that, even with a general professional proficiency score in
reading, they still could not read articles quickly enough to make the learning effort worthwhile.
They argued it would be more useful to spend instruction time on improving their speaking
abilities. If the Department determines that it is not necessary to have symmetric speaking and
reading levels for some language-designated positions in Thailand, training time would be
reduced and cost savings would be realized.

        To foster the development and use of foreign language skills deemed critical to its
mission, the Department provides monetary incentives for proficiency in designated hard
languages, including Thai. To qualify for this language incentive pay, specialists must achieve
limited working proficiency in speaking and reading; generalists must achieve general
proficiency in both. If the Department decides to establish asymmetric speaking and reading
levels in Thai for some positions in Thailand, it will have to evaluate whether to extend
                                          10
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

asymmetric language incentive pay (which it currently has for seven languages) to Thai.
Otherwise, the Department may find it difficult to provide incentive for students to study Thai
for those positions.

Recommendation CFR 10: The Bureau of Human Resources, in coordination with the Bureau
of East Asian and Pacific Affairs and Embassy Bangkok, should evaluate the levels of speaking
and reading proficiency in Thai needed in each language-designated position in Thailand to
determine whether some should have asymmetric speaking and reading levels. If so, the
language designations of those positions should be revised accordingly and the Bureau of Human
Resources should evaluate whether to include Thai in the asymmetric language incentive pay
pilot program. (Action: DGHR, in coordination with EAP and Embassy Bangkok)




                                         11
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Public Diplomacy Issues
         The 2010 inspection report described a large, well-functioning public affairs section that
did an outstanding job supporting Embassy Bangkok’s strategic priorities. That description is
still accurate; in fact, public diplomacy operations are even more effective because of changes in
the front office and the Ambassador’s strong support for public affairs. The 2010 report also
noted several weaknesses; the section has successfully addressed all of them. The CFR team
closed all the formal and informal recommendations for public diplomacy.

        In the past 3 months, the public affairs section experienced multiple staffing changes. The
former public affairs officer left in January 2012 to become the principal officer in Chiang Mai.
His temporary successor, the cultural affairs officer, retains his responsibilities for the cultural
unit, whose small and relatively inexperienced American staff was also in flux. During the CFR,
an EFM overseeing speaker and other programs resigned, and an ELO on a consular/public
diplomacy rotation was seconded to the front office as a staff assistant. This left a recently
arrived professional associate to handle much of the work. The cultural unit also took a hard look
at its American Corners network, closing one less effective corner and opening another at a
nearby university.

       Before leaving Bangkok, the former public affairs officer restructured the section’s
Information Resource Center, moving two of its staff to the information unit and putting the
remaining three under the direct supervision of the regional information resource officer. Though
the change initially provoked dismay among affected staff, the situation has since settled; the
CFR team believes the change was needed and ultimately will benefit public affairs operations as
a whole.

        The information unit has won the confidence and support of the activist, public-
diplomacy-oriented Ambassador and of the country team. The Ambassador instituted a weekly
public affairs meeting attended by the DCM, all section heads, and many agency chiefs.
Discussions focus on upcoming public events and initiatives as well as the public message on
bilateral issues.

       The information unit’s efforts in social media, supported by a full-time specialist hired in
2010, dramatically expanded the audience for mission messages. The embassy’s Facebook page
now has more than 34,000 friends; 40,000-plus Thais follow the embassy’s Twitter feeds; and
more than 28,000 Thais receive the Ambassador’s personal tweets, giving her the third-largest
following of any U.S. ambassador worldwide. Traditional media pick up embassy postings on
Facebook, YouTube, and Twitter and use the material in print and broadcasts, garnering a much
wider audience than conventional embassy press releases or opinion pieces in the newspapers.

        In accord with a recommendation in the 2010 inspection report, all relevant public affairs
staff members successfully completed one or more of the online grants training courses offered
by the Foreign Service Institute. Grants files are in order, and the section maintains a color-coded
spreadsheet, available to all staff, that summarizes the status of all grants and ensures better
tracking.


                                          12
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Consular Issues
       The 2010 inspection report described a consular section with serious leadership and
morale problems. A strong cadre of ELOs and LE staff members were putting in an impressive
performance under great stress, but the consul general and the visa chief were providing
inadequate leadership and supervision. The two most senior officers in the section were not
helping the other officers during peak visa workload periods, they were not mentoring and
counseling the ELOs on a regular basis, and they were not communicating well with the staff.

        The CFR team observed a transformed consular section. The new consul general and visa
chief arrived in the summer of 2011. They and the other consular managers are practicing the
consular leadership tenets of the Bureau of Consular Affairs. Although the workload for the
section continues to rise and the pressures on the staff are heavy, consular employees are
working hard and their morale is high.

        The CFR team identified several issues that had been the subject of informal
recommendations in the 2010 report and that had not been resolved in the interim. Those
informal recommendations have been revised and reissued as formal recommendations in this
report. In addition, the team addressed other issues that will bring the consular section into
conformity with regulations and help the section operate more efficiently.

American Citizens Services

        American citizens services workload growth is the largest factor putting pressure on the
consular staff. Thailand continues to attract increasing numbers of American tourists, Americans
who work in industries such as finance, and retired Americans and those looking for an
inexpensive place to live. The growth in American citizens services workload led to
Recommendation 21 in the 2010 report that one of the eight ELO positions be transferred from
the nonimmigrant visa unit to the American citizens services unit. The embassy did transfer the
position, and that has helped the unit cope with its growing workload.

        In September 2011, the embassy instituted an appointment system for nonemergency
American citizens services such as notarials and passports. The OIG team had recommended this
in 2010 in Informal Recommendation 13. The embassy had not implemented that
recommendation until the Department (in State cable 60939 on June 17, 2011) mandated such an
appointment system in all posts effective September 2011. Advantages of appointments include
reducing wait times for Americans seeking services; balancing workload with staffing; and
helping applicants avoid second visits by informing them in advance of the documents they need
to bring.

        Embassy Bangkok found initially that the new appointment system did indeed lead to
these improvements, but in the intervening months the consular section’s failure to enforce the
system effectively has reduced its benefits. Consular employees have been serving American
citizens who were requesting nonemergency services despite their lack of appointments. The
customers have been told to wait until those with appointments have been served first. Although
the intent of not turning away Americans is admirable, the result has been that more Americans
are walking in without appointments and expecting to be served.
                                                13
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        The contrast with the experience of the consular section in Chiang Mai is telling. Chiang
Mai instituted an American citizens services appointment system well before Bangkok. In
Chiang Mai, the consular officers ask Americans without appointments to make an appointment.
Officers use their discretion in cases of extenuating circumstances. This system is more effective
than the current one in Bangkok. Informal Recommendation 13 is revised and reissued as a
formal recommendation.

Recommendation CFR 11: Embassy Bangkok should fully implement and enforce the
appointment system for nonemergency services in the American citizens services unit by
requiring those consular customers who walk in for such services to make appointments.
(Action: Embassy Bangkok)

        The American citizens services unit does not have a phone tree. LE staff members are
interrupted regularly throughout the day by phone calls, many of which are routine procedural
questions. This impedes the efficiency of the unit and does not conform with standard
management practices in other large consular sections. This issue was the subject of Informal
Recommendation 14 in the 2010 report. Consular managers told the CFR team that they had
been planning to install a phone tree in 2011 but their attention was diverted by the floods.
Following that crisis, the embassy instituted a new telephone system. The managers said they are
pursuing this issue. This informal recommendation is revised and reissued as a formal
recommendation.

Recommendation CFR 12: Embassy Bangkok should implement a phone tree to channel
routine calls on American citizens services to recorded messages, minimizing interruptions for
routine inquiries. (Action: Embassy Bangkok)

Immigrant Visas

       The immigrant visa unit, which processes approximately 2,500 applications per year,
engages in some inefficient practices that should be corrected. These issues were the subjects of
informal recommendations in the 2010 report but had not been resolved in the interim.

        When immigrant visa applicants are refused because they are missing one or more key
documents (for example, the original of a marriage certificate), they usually return to the
consular section to submit the missing documents. In other posts, applicants normally submit
missing documents through the mail or a courier service. The applicants have already been
interviewed and have signed the applications before a consular officer, so a second personal
appearance by applicants serves no purpose. Asking applicants to return to submit missing
documents creates more work for security and consular employees. Department regulation 7
FAH-1 H-263.2 states in part: “Limiting the need for multiple visits to the (consular) section, and
the resulting additional work placed on consular and security staff, should be a priority in
organizing operations.”

        The 2010 OIG team recommended in Informal Recommendation 12 that the embassy
require additional personal appearances by immigrant visa applicants only when a personal
interview was essential to determine visa eligibility. When asked why they had not implemented
that informal recommendation, consular employees told the CFR team that they were worried
                                          14
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

that a document might get lost in the Thai postal system, which serves as the equivalent of a
courier service for the consular section in Bangkok. The employees admitted that they have been
using the same postal system for years to send American passports and tens of thousands of
passports with nonimmigrant visas, and they have not had reports in years of the postal system
losing documents. This informal recommendation is revised and reissued as a formal
recommendation.

Recommendation CFR 13: Embassy Bangkok should implement a change in immigrant visa
processing so that applicants who must submit missing documents are encouraged to send them
through the Thai postal system rather than delivering the documents in person to the consular
section. (Action: Embassy Bangkok)

        In a similar vein, the 2010 team recommended in Informal Recommendation 11 that the
embassy send issued immigrant visas to applicants by mail. The embassy did not implement that
recommendation. As noted above, the embassy already sends U.S. passports and passports with
nonimmigrant visas to the applicants by mail. Consular managers told the CFR team that they
had not made this change because it was relatively easy to replace passports and nonimmigrant
visas but it was more difficult to replace all the documents contained in an immigrant visa
package. The CFR team believes the managers need to practice risk management, not risk
avoidance; the benefits of this change are great and the risks are small. This informal
recommendation is revised and reissued as a formal recommendation.

Recommendation CFR 14: Embassy Bangkok should change immigrant visa processing so
that the issued immigrant visas are sent to the applicants through the Thai postal system rather
than requiring the applicants to appear in person to pick up their visas. (Action: Embassy
Bangkok)

Consular Personnel Issues

       Recommendation 22 of the 2010 report recommended the embassy update the position
descriptions for the LE staff in the visa unit. The recommendation was in resolved/open status
when the CFR was announced in the fall of 2011. The CFR team reviewed the issue in Bangkok
and closed this recommendation as implemented. Now the embassy needs to take the next step of
reviewing the grade levels of those positions.

Recommendation CFR 15: Embassy Bangkok should evaluate the updated position
descriptions for the employees in the visa unit of the consular section to determine the
appropriate grade levels for those positions. (Action: Embassy Bangkok)

        ELOs in the consular section are working considerable amounts of overtime, but they are
not claiming compensation. The CFR team heard anecdotal evidence that the officers were
working on average several hours of overtime per week. The team reviewed the overtime
claimed by consular section ELOs for the previous 3 months. Only 3 hours of the overtime
claimed appeared to be for consular work. The rest was related to high-level visits, surveys of the
areas affected by the recent floods, and work in support of the front office.



                                          15
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation CFR 16: Embassy Bangkok should implement a plan so that entry-level
officers in the consular section seek approval and claim compensation for the hours of overtime
they work. (Action: Embassy Bangkok)

Consular Files

        The consular section has seven file cabinets of Category 1 refusals, the visa files of
applicants refused for reasons that make them permanently ineligible. New Category 1 refusal
records are scanned and retained electronically, and the paper records are shipped to the
Kentucky Consular Center in accordance with the requirements in 9 FAM Appendix F. The
consular section has not dealt with the old Category 1 refusal files, however. According to 9
FAM Appendix F, 101.1, “Posts must electronically scan all unclassified Category 1 refusal files
into the Consular Consolidated Database and immediately ship the Category 1 paper refusal files
to Kentucky Consular Center for storage.”

         In addition, 9 FAM Appendix F, 103.5 notes that “the Kentucky Consular Center is
prepared to perform back-scanning of every post’s unclassified Category 1 refusal files.” The
same reference also states that posts must cull the files for extraneous documentation, as
employees of the Kentucky Consular Center are not authorized to perform that task. The CFR
team did a spot check of the files. The sampling showed the files to be in excellent shape, but it
will still be necessary to review all the files before shipment. The CFR team also confirmed with
the Kentucky Consular Center that it was prepared to scan Bangkok’s files.

Recommendation CFR 17: Embassy Bangkok, in coordination with the Bureau of Consular
Affairs, should implement a plan to cull the embassy’s Category 1 visa refusal files of extraneous
documentation and ship the remaining paper files to the Kentucky Consular Center for scanning.
(Action: Embassy Bangkok, in coordination with CA)

        The consular section also has several file cabinets of visa cases in which the consular
section has entered lookouts of derogatory information that may or may not lead to visa
ineligibility. Such lookouts are retained in the consular lookout system only for 10 years. The
CFR team reviewed a sampling of the files. The files were culled recently to clear them of cases
that were created more than 10 years ago, but the section does not have a plan for future culling
of the files.

Recommendation CFR 18: Embassy Bangkok should implement a plan to identify all local
lookout visa files by date of creation to facilitate future reviews of the files for removal of
inactive cases. (Action: Embassy Bangkok)

Consular Space Issues

        The security upgrades to the consular section that were the subject of a recommendation
in the 2010 report were completed in the summer of 2011. The upgrades solved the space issues
that had been identified by the OIG team in 2010. The CFR team identified three new space
issues.



                                          16
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

       The upgrades included the addition of more interview windows for the American citizens
services unit and the reconfiguration of the waiting room for the unit. The noise level in the
waiting room is high when the waiting room is full, which is often. Sound buffering would
mitigate the noise problem.

Recommendation CFR 19: Embassy Bangkok, in coordination with the Bureau of Consular
Affairs and the Bureau of Overseas Buildings Operations, should implement a plan to mitigate
the noise problem in the waiting room of the American citizens services unit in the consular
section. (Action: Embassy Bangkok, in coordination with CA and OBO)

        As stated in 7 FAH-1 H-282, work spaces in consular sections should have partitions no
higher than 42 inches. The partitions in the LE staff work areas in the immigrant visa units and
the American citizens services units of the consular section are 72 inches high. (b) (5)


Recommendation CFR 20: Embassy Bangkok should change the partitions in the locally
employed staff work areas of the immigrant visa unit and the American citizens services unit of
the consular section so that the partitions are no higher than 42 inches. (Action: Embassy
Bangkok)




                                         17
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Consulate General Chiang Mai
       The consulate general is a small, well-run post. A recent unexpected change in consuls
general due to a family medical emergency was well managed by both the departing and
incoming officers. The new consul general, an officer with significant experience in Thailand, is
quickly and effectively taking over his new responsibilities. The consulate general receives
excellent support from Embassy Bangkok, including some management services, public
diplomacy programming, and consular staffing assistance.

        Although the consulate general’s facility is beautiful, it is located in an historic
compound with significant maintenance challenges and no room to expand. This is especially a
problem in the consular section. If the consular workload continues to grow, the consular section
will have no space to add more staff. As it is, there is no room for a separate consular cashier
booth. (b) (5)


        Consulate General Chiang Mai has two ELO positions that were the subject of
Recommendation 23 in the 2010 report. In Appendix I, the CFR findings explain further the
recent history of these two positions. One position is a political and economic officer position,
and the other is a consular and political officer position. As consular workload has increased, the
officer in the consular/political position has had less time for the political part of the portfolio.
The CFR team assessed that the position requires approximately 75 percent of time dedicated to
consular work. With such a heavy concentration of time in one function, it is difficult for the
officer in that position to carry out the political officer duties effectively .

        Because both positions are at the FS-04 level, it would be more rational to convert the
two positions to rotational. This would provide a wider experience for the officers and would
allow them to back up each another as necessary. The change should be made effective for future
assignments. Officers already assigned should not be affected.

Recommendation CFR 21: Embassy Bangkok, in coordination with the Bureau of East Asian
and Pacific Affairs and the Bureau of Human Resources, should convert the two entry-level
officer positions in Chiang Mai to a consular and political/economic rotation. (Action: Embassy
Bangkok, in coordination with EAP and DGHR)




                                          18
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Management Issues
Management Section

        Embassy Bangkok’s management section has been, and continues to be, highly
successful in providing management services to the large number of Department staff, as well as
the staff of 31 other agencies and 9 regional support offices. For 2011, the International
Cooperative Administrative Support Services scores all exceeded 4.0; these were higher than the
2010 scores, higher than other embassies in the Bureau of East Asian and Pacific Affairs (EAP),
and higher than worldwide averages.

        The management counselor provides strong leadership to a section that includes 23 U.S.
direct-hire employees. The section is understaffed in that it does not include a mid-level
generalist management officer, a needed resource in this huge enterprise of over 600 direct-hire
Americans; more than 1,110 LE staff members; 55 EFMs; and hundreds of contractors, including
local guards and others. An FS-01 deputy management officer position was abolished in 1997.
The section’s office management specialist position was converted to an EFM position. An ELO
supports the management counselor as the only other generalist officer in the management
section.

        In the 15 years since the deputy management officer position was abolished, the embassy
has grown enormously in fiscal and human capital resources, including the addition of many
other agencies and regional entities. The present structure is not adequate to meet the embassy’s
need for a fully staffed management section. Although assigning one of the ELOs to fill the
management officer role has been a reasonable accommodation, it is not a permanent solution.

        The 2010 OIG report noted that the embassy hoped that the Department would provide
the position under the Diplomacy 3.0 program. Although the embassy planned to ask for one of
the assistant general services officer positions to be reprogrammed if the position was not
provided, it did not request the position. The CFR team believes that an entry-level general
services officer position (position number 52469013) should be reprogrammed to the FS-02
level. This change would not increase the number of officers in the management section but
provides needed management support and oversight.

Recommendation CFR 22: The Bureau of East Asian and Pacific Affairs, in coordination with
Embassy Bangkok and the Bureau of Human Resources, should reprogram an entry-level general
services officer position (position number 52469013) to an FS-02 position and designate it as the
management officer. (Action: EAP, in coordination with Embassy Bangkok and DGHR)

Employee Engagement Initiative

        The management section has undertaken an Employee Engagement Initiative aimed at
creating a more cohesive organizational structure and becoming a model 21st century diplomatic
mission and regional platform. The vision emphasizes shared values, common goals, and
teamwork with a focus on integrity, unity, creativity, and responsibility. Embassy support and
the management section’s leadership, interest, and focus on engagement goals continue to make
this embassy a high performing organization.
                                                19
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



Regional Support

        The Department and eight other agencies have regional offices in Bangkok. The
embassy’s management section provides administrative support for them as they subscribe to the
International Cooperative Administrative Support Services. At the same time, the embassy
provides human resources and budget support to Embassy Dili; human resources support to
Embassy Vientiane and Embassy Rangoon; and facilities and financial management support to
all these embassies. Although an earlier goal to expand services and become the support platform
of choice has been discontinued, the support continues to play a big role in embassy
responsibilities.

Regional Employment Development Center

        EAP provides funding to share training space with the U.S. Agency for International
Development at the Asia Regional Employment Development Center. Together EAP, the Bureau
of Near Eastern Affairs, and the Bureau of South and Central Asian Affairs divide the cost of the
Department’s share of 25 percent of the training center space, totaling approximately $170,000
annually. The development center’s training is different from the focused and specific financial
management training the Bureau of Resource Management’s Global Financial Management
Center provides in a nearby location. When there are capacity problems, the U.S. Agency for
International Development shares one of its classrooms, the classes may be held in a hotel, or the
Global Financial Management Center may provide space and, occasionally, a trainer.

         EAP and the Foreign Service Institute placed a member of the Foreign Service Institute
training staff in Bangkok. As the Department’s director at the center, the trainer is a member of
the management team and provides administrative services at the training facility. Since her
arrival, the Foreign Service Institute has begun to give credit for courses taken at the
development center and at the financial management center. The Asia Regional Employment
Development Center’s director is well satisfied with the center’s success and the number of
students who have found the courses worthwhile.

Human Resources

       The human resources office provides excellent service to the large population resident in
Bangkok. The office also provides regional support to Embassies Dili, Rangoon, and Vientiane,
where there are only LE staff assistants, and gives computer-aided job classification services to
an additional eight posts in the region. Staffing includes 3 direct-hire human resources officers
and 26 LE staff members, sufficient to accomplish their work.

        Embassy employees have submitted direct-hire American, EFM, and LE staff evaluations
within deadlines. The section revised its LE staff compensation plan to include a clear
description of its policy and the Government of Thailand’s requirement that limits employment
to 1 year beyond the mandatory separation age of 60. The embassy agreed to include the
information in its next revision of the LE staff employment handbook.



                                          20
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        External employment for family members continues to be an issue. There is no bilateral
work agreement, although the embassy has attempted to negotiate an agreement for the last 10
years. At this point, the embassy has abandoned the goal to establish a bilateral work agreement.
The embassy currently employs 55 EFMs, with 9 more in the process of being hired. Agencies
with a large regional presence lag behind on creating opportunities for EFMs.

Equal Employment Opportunity and Civil Rights

       Embassy Bangkok’s Equal Opportunity Employment and Civil Rights program is robust.
The three counselors are trained and take their roles seriously. As OIG recommended previously,
the embassy added an Equal Opportunity Employment segment to newcomer orientations and
provides handouts with relevant information on how to address workplace concerns.

Duty Officer Roster

        In 2010, Embassy Bangkok introduced a lottery system to assign duty officers and ensure
duty officer assignments are equitable and transparent. The management section developed a
system that clearly defines eligible personnel, as well as staff exempt from serving as duty
officers, and assigns an agency a number of weeks for duty based on the total number of that
agency’s personnel in the mission.

         The roster covers the full year, and each week is assigned to an agency based on lottery
results. Each agency assigns an individual to serve during the assigned week and provides the
name to the human resources office.

Financial Management

        The financial management section provides excellent customer service and financial
support, including budgeting and accounting to its large client base. The section also provides
regional support to Embassy Dili and Embassy Vientiane, which rely on their LE staff for
financial management needs. The local staffs lack financial expertise and consult with Embassy
Bangkok regularly.

        The section’s present staffing, 2 direct-hire American financial management officers and
28 LE staff members, is sufficient to meet customer needs and provide oversight. This section is
very efficient. Despite its heavy work load, the staff processes large numbers of transactions with
fewer LE staff members than at similarly large embassies. For example, in FY 2011, the
financial management section’s voucher examiners processed a total of 40,525 vouchers or an
average of 2,984 vouchers per examiner, exceeding the worldwide average of 2,033 vouchers per
examiner.

        The financial management office revised and reissued the embassy’s temporary duty
policy, discontinued check cashing privileges for retired local employees, issued policies and
procedures for bulk funding blanket purchase agreements and purchase cards, and completed all
outstanding recommendations in the 2010 OIG report.



                                          21
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


International Cooperative Administrative Support Services

        The International Cooperative Administrative Support Services council operates
effectively. Each agency subscribing to the International Cooperative Administrative Support
Services sends one representative to the council meetings, which are held approximately four
times each year, in compliance with 6 FAH-5 requirements. A consensus vote determines
outcomes. Subcommittees are formed when needed to discuss outstanding issues such as
furniture pool contributions. Most subscribers are satisfied that the meetings are productive.

Facilities Management

        Two facilities managers are responsible for 26 U.S. Government-owned properties. These
include the Ambassador’s residence, now on a long-term lease at $1,500 annually; five
executive-level residences at the Rajdamri compound; the chancery (new office building); the
existing office building, which houses the consular section, the Global Financial Center, the
Marine House, and the commissary; and an apartment building with 18 standard and mid-sized
apartments on two lots. The section provides carpentry and other furniture refinishing services.

General Services Office

        The senior general services officer is very experienced and an expert in the section’s
operations and requirements. This section is excellent, and there are no concerns about
performance. As noted above, one of the five general services officers assigned to Embassy
Bangkok serves as the deputy management officer. Consequently, the four officers have large
and complicated portfolios. For example, the housing officer is responsible for all phases of
housing from leasing 421 short-term leased residences, to make-ready, to housing assignments.
The section also assists as needed with 93 local quarters’ allowance residences. Many landlords
supply furniture; however, the embassy fills in with extra bookcases, desks, and other
furnishings.

        Twenty-five percent of the procurement section’s purchases are for specialized brand
name medications and other supplies for the Armed Forces Research Institute Medical Services.
Major contracts over $250,000 that require a waiver from the Department include the local staff
health care contract, janitorial and gardening services, packing and crating services, copier
maintenance, travel, life insurance, and a difficult new cell phone contract. The section has just
begun its transition to the Department’s Integrated Logistics Management System.

        Finally, a general services officer, located at the Rajdamri compound, is responsible for
motor pool, receiving, inventory controls, and overseeing a sprawling warehouse. He is also the
gifts officer, responsible for receiving, recording, inventorying, and disposing of gifts as
referenced in the embassy’s gifts policy, found in management instruction number A2010-025,
dated March 8, 2011.

Mission Visitors Office

        The mission visitors office makes hotel arrangements for about 50,000 hotel nights per
year for Embassy Bangkok’s many visitors and also arranges expediting and motor vehicle
                                          22
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

services. In addition, it coordinates with the warehouse to supply expendable and nonexpendable
items used in control rooms during visits. The implementation of the Department’s Integrated
Logistics Management System will help to ensure inventories are accurate.

Information Management

        The information management office is an efficient, well-managed operation that meets
customer needs. The team has successfully taken on new projects, including the creation of a
computer donation program to local schools and implementation of a technology camp in which
the section nongovernmental organizations partner to train students. The operation, with 60
employees in 7 locations, is led by a capable, goal-oriented information management officer. The
office provides rover support to 33 embassies and consulates in East Asia.

       All formal and informal recommendations for which the information management office
was responsible have been closed. The CFR reviewed telephones, radios, mail, print services,
and the help desk operation and concluded that internal operations are solid and meet standard
operating practices.

         The office has had many significant achievements since the 2010 inspection. For
example, the embassy completed the installation of a new telephone system and the replacement
of all wiring in seven locations in 2011. A full-time information systems security officer position
was established and will monitor nearby small posts. During the floods, the switchboard was a
lifeline for Mission Thailand. The major challenge that the office faces is that the expansion of
the customer base is not supported by increases in staffing. The embassy is looking at ways to
address this issue in consultation with EAP.

Quality of Life

        Embassy morale is high. The commissary is well stocked with familiar products and
offers mailing, dry cleaning, and other services. Housing is spacious and accommodating and,
for those close to the school, worth the commute. Bangkok suffers from a hot, muggy climate
and notorious traffic jams, yet employment at the embassy is highly sought after and the staff is
capable and competent. The health unit is innovative in its attempts to offer modern techniques,
and local hospitals and health care providers are modern and capable.

Community Liaison Office

        The community liaison offices in Bangkok and Chiang Mai received high praise for their
creativity and dedication. The coordinators participate actively in the emergency action
committees and are treated as integral members of the country team. The community liaison
office in Bangkok, whose coordinators are well versed and enthusiastic, pays special attention to
assisting EFMs seeking employment in the embassy.

Health Unit

       The health unit occupies a spacious location, with professional medical staffing, a
laboratory, and examination rooms dedicated to eye and ear examinations, pediatric patients, and
                                          23
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

trauma requirements. The unit provides food sanitation training. Storage has proper locks for
controlled substances and over-the-counter medications.

        The regional medical officer is using new technologies to enhance diagnosis and
treatment. For example, he is using a “telemedicine” capability to enable distant examinations
for cardiac and lung function, ear and nose problems, and skin conditions. Further, he is using an
electronic system that provides better medical records information and privacy for patients.

American Community Support Association

        Embassy Bangkok staff had positive views about the recreation association, its
commissary, and the snack bars it operates. The commissary stocks American brands and carries
a large selection of alcoholic beverages. It contracts for coffee shops located at the chancery and
other facilities, often makes financial contributions to community liaison events, and is
contributing to a new fitness center. Temporary duty personnel have cost-free access.

        The recreation association has annual audits, as required. Although the cafeterias lose
money, fuel oil sales provide revenue that offsets those losses, keeping the association essentially
solvent. In October 2011, the Bureau of Administration’s Office of Commissary and Recreation
Affairs conducted a comprehensive review of Embassy Bangkok’s American Community
Support Association. Its report identified 23 operational and management control deficiencies.
The association manager and active board of directors are working to correct them. To date, six
deficiencies have been corrected. The Office of Commissary and Recreation Affairs tracks
recommendations and ensures that recreation associations take corrective action with regard to
the recommendations.

Management Controls

        The Ambassador’s Chief of Mission Annual Management Control Statement of
Assurance, dated July 5, 2011, stated that the embassy had conducted an evaluation of the
systems of management controls for Embassy Bangkok and constituent posts, in accordance with
2 FAM 020 requirements, and found no problems. The memorandum was accompanied by
internal management control review lists for Embassy Bangkok and Consulate General Chiang
Mai. The CFR team did not find control deficiencies during the CFR.




                                          24
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


List of Compliance Followup Review Recommendations
Recommendation CFR 1: Embassy Bangkok, in coordination with the Bureau of East Asian
and Pacific Affairs and the Bureau of Human Resources, should implement a solution to provide
the embassy a formal entry-level staff aide position. (Action: Embassy Bangkok, in coordination
with EAP and DGHR)

Recommendation CFR 2: Embassy Bangkok should differentiate clearly the portfolios of
political section locally employed staff members and update position descriptions accordingly,
specifying reporting and backup responsibilities. (Action: Embassy Bangkok)

Recommendation CFR 3: Embassy Bangkok should submit by record emails reporting
relevant to policy interests that is not transmitted in front channel cables. (Action: Embassy
Bangkok)

Recommendation CFR 4: Embassy Bangkok should create a functioning central biographic
file accessible to Department of State personnel. (Action: Embassy Bangkok)

Recommendation CFR 5: Embassy Bangkok should implement procedures to ensure that the
economic section creates record emails and retires official records, in accordance with
Department of State standards. (Action: Embassy Bangkok)

Recommendation CFR 6: Embassy Bangkok, in coordination with the Bureau of Oceans and
International Environmental and Scientific Affairs, should delineate in writing the portfolio of
the regional environmental officer and that of the bilateral environment, science, technology, and
health officer. (Action: Embassy Bangkok, in coordination with OES)

Recommendation CFR 7: Embassy Bangkok should require the bilateral environment,
science, technology, and health officer to complete grants training. (Action: Embassy Bangkok)

Recommendation CFR 8: Embassy Bangkok should develop a standard operating procedure
for entering and updating records in its mission contact management database and implement a
plan to train staff from each section to use the database effectively. (Action: Embassy Bangkok)

Recommendation CFR 9: Embassy Bangkok should submit a new certification to the Bureau
of Human Resources specifying which language-designated positions are essential to advance
foreign policy objectives. (Action: Embassy Bangkok)

Recommendation CFR 10: The Bureau of Human Resources, in coordination with the Bureau
of East Asian and Pacific Affairs and Embassy Bangkok, should evaluate the levels of speaking
and reading proficiency in Thai needed in each language-designated position in Thailand to
determine whether some should have asymmetric speaking and reading levels. If so, the
language designations of those positions should be revised accordingly and the Bureau of Human
Resources should evaluate whether to include Thai in the asymmetric language incentive pay
pilot program. (Action: DGHR, in coordination with EAP and Embassy Bangkok)

Recommendation CFR 11: Embassy Bangkok should fully implement and enforce the
appointment system for nonemergency services in the American citizens services unit by
                                          25
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

requiring those consular customers who walk in for such services to make appointments.
(Action: Embassy Bangkok)

Recommendation CFR 12: Embassy Bangkok should implement a phone tree to channel
routine calls on American citizens services to recorded messages, minimizing interruptions for
routine inquiries. (Action: Embassy Bangkok)

Recommendation CFR 13: Embassy Bangkok should implement a change in immigrant visa
processing so that applicants who must submit missing documents are encouraged to send them
through the Thai postal system rather than delivering the documents in person to the consular
section. (Action: Embassy Bangkok)

Recommendation CFR 14: Embassy Bangkok should change immigrant visa processing so
that the issued immigrant visas are sent to the applicants through the Thai postal system rather
than requiring the applicants to appear in person to pick up their visas. (Action: Embassy
Bangkok)

Recommendation CFR 15: Embassy Bangkok should evaluate the updated position
descriptions for the employees in the visa unit of the consular section to determine the
appropriate grade levels for those positions. (Action: Embassy Bangkok)

Recommendation CFR 16: Embassy Bangkok should implement a plan so that entry-level
officers in the consular section seek approval and claim compensation for the hours of overtime
they work. (Action: Embassy Bangkok)

Recommendation CFR 17: Embassy Bangkok, in coordination with the Bureau of Consular
Affairs, should implement a plan to cull the embassy’s Category 1 visa refusal files of extraneous
documentation and ship the remaining paper files to the Kentucky Consular Center for scanning.
(Action: Embassy Bangkok, in coordination with CA)

Recommendation CFR 18: Embassy Bangkok should implement a plan to identify all local
lookout visa files by date of creation to facilitate future reviews of the files for removal of
inactive cases. (Action: Embassy Bangkok)

Recommendation CFR 19: Embassy Bangkok, in coordination with the Bureau of Consular
Affairs and the Bureau of Overseas Buildings Operations, should implement a plan to mitigate
the noise problem in the waiting room of the American citizens services unit in the consular
section. (Action: Embassy Bangkok, in coordination with CA and OBO)

Recommendation CFR 20: Embassy Bangkok should change the partitions in the locally
employed staff work areas of the immigrant visa unit and the American citizens services unit of
the consular section so that the partitions are no higher than 42 inches. (Action: Embassy
Bangkok)

Recommendation CFR 21: Embassy Bangkok, in coordination with the Bureau of East Asian
and Pacific Affairs and the Bureau of Human Resources, should convert the two entry-level
officer positions in Chiang Mai to a consular and political/economic rotation. (Action: Embassy
Bangkok, in coordination with EAP and DGHR)

                                          26
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Recommendation CFR 22: The Bureau of East Asian and Pacific Affairs, in coordination
with Embassy Bangkok and the Bureau of Human Resources, should reprogram an entry-level
general services officer position (position number 52469013) to an FS-02 position and designate
it as the management officer. (Action: EAP, in coordination with Embassy Bangkok and DGHR)




                                        27
                            SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal CFR Recommendation 1: Embassy Bangkok should assess the needs of the
environment, science, technology, and health section and revise the eligible family member’s
portfolio accordingly.

Informal CFR Recommendation 2: Embassy Bangkok should develop fully functioning
SharePoint sites for the political, economic, and transnational crime affairs sections.




                                         28
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                         Name              Arrival Date

Ambassador                                       Kristie A. Kenney           01/2011
Deputy Chief of Mission                          Judith B. Cefkin             7/2010

Chiefs of Sections:

Management                                       Gregory S. Stanford          7/2009
Consular                                         Elizabeth S. Pratt           8/2011
Political                                        Raymond D. Richhart          6/2011
Economic                                         Julie J. Chung               9/2010
Public Affairs (Acting)                          Michael J. Honnold          10/2011
Regional Security                                Melissa C. Foynes            8/2011
Transnational Crime Affairs                      Ali Jalili                   8/2011
Refugee and Migration Affairs                    Andrea L. Doyle              8/2010
Bangkok Regional Diplomatic Courier Division     James B. Angell              8/2011
Global Financial Services Bangkok                Barry L. Haney               7/2011
Bangkok Regional Director Security Engineering   Stephen J. Klein             8/2009
Regional Information Management Center
Bangkok                                          Patrick J. Meagher           8/2011

Consulate General Chiang Mai
  Principal Officer (Acting)                     Kenneth L. Foster            6/2009

Other Agencies:

Broadcasting Board of Governors                 Richard G. Baltes             9/2003
Centers for Disease Control                     Michael D. Malison           10/2006
Department of Agriculture
  Foreign Agricultural Service                  John Wade                     7/2010
  Animal and Plant Health Inspection Services   Robert T. Tanaka             12/2008
Regional Marine Office                          Lt. Col. Thomas Stephens      6/2011
Department of Defense
  Joint States Military Advisory Group          Col. Edward A. Swanda         6/2008
  Defense Attaché                               Col. Patrick J. Kane          5/2010
  Defense Attaché Technical Liaison             Richard D. Gibson            10/2008
  Defense Attaché System Support                Robert W. Majors              6/2010
  Armed Forces Research Institute of Medical
  Science                                       Col. Robert A. Bowden         6/2010
  Force Protection Detachment                   Gregory S. Miller             8/2009
  Joint POW/MIA Accounting Command              Lt. Col. Marc E. Galler       1/2009
   Resident Office in Charge of Construction    Lt. Cdr. Aaron W. Park        3/2011
Department of Homeland Security
  Citizen and Immigration Services              Pius D. Bannis               11/2011
  U.S. Customs and Border Protection            Ana Cambiaso                  8/2011
                                             29
                             SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

  U.S. Immigration and Customs Enforcement   Barry Tang            4/2009
  Transportation Security Administration     Anjum K. Agarwala    11/2008
  U.S. Secret Service                        Sung H. Yi           10/2010
Department of Justice
  Office of International Affairs            Philip A. Guentert    8/2010
  Drug Enforcement Agency                    Joseph P. Reagan     10/2011
  Legal Attaché                              Daniel P. Kelly       1/2006
Open Source Center                           Jesse Reeder          6/2010
Foreign Commercial Service                   Michael McGee         8/2011
U.S. Agency for International Development    Michael J. Yates      5/2011
Peace Corps                                  David Claussenius     7/2011
U.S. Trade and Development Agency            Mark Dunn             1/2009




                                      30
                          SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
CFR             Compliance followup review
DCM             Deputy chief of mission
Department      U.S. Department of State
EAP             East Asian and Pacific Affairs
EFM             Eligible family member
ELO             Entry-level officer
FAH             Foreign Affairs Handbook
FAM             Foreign Affairs Manual
LE              Locally employed
OBO             Bureau of Overseas Buildings Operations
OIG             Office of Inspector General




                            31
                SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Appendix I: Status of 2010 Inspection Formal
Recommendations
Recommendation 1: The Bureau of East Asian and Pacific Affairs should require a career
Foreign Service officer assigned to a large embassy (Overseas Staffing Model category 4 and
above) as a Chief of Mission for the first time but who has never served as a deputy chief of
mission to take the deputy chief of mission training at the Foreign Service Institute. (Action:
EAP)

Pre-CFR Status: Closed.

CFR Findings: EAP argued that there is sufficient overlap between DCM and Chief of Mission
training at the Foreign Service Institute to make the recommendation unnecessary. For Chiefs of
Mission without DCM background, the two bureaus would work together to indentify and
address areas where specific training was needed. This recommendation is closed on the basis of
acceptable alternative implementation.

Recommendation 2: Embassy Bangkok should establish a schedule to post, on the Intellipedia
system and in cables, regular biographic submissions on official and unofficial Thai individuals
in the political and economic fields. (Action: Embassy Bangkok)

Pre-CFR Status: Closed.

CFR Findings: Embassy Bangkok reported in a compliance message that it had reviewed its
biographic files and had begun in January 2011 to post updates regularly on a twice-per-month
schedule to Intellipedia. It commented that biographic reporting would be augmented by a new
reporting officer to be assigned to the political section in May 2011 and a new EFM position in
the political section.

The CFR team found that the embassy has taken a number of steps to improve its biographic
files, but that its files are still not fully functional. Political and economic section staff members
were unaware that they were to have been updating biographic files twice a month on
Intellipedia and have not been doing so. The biographic information coordinator designated in
the most recent delegation of authority reported that, by the time he departed post in July 2011,
he had updated only two biographies on Intellipedia. The two sections store unclassified and
Sensitive But Unclassified biographic files on separate shared drives on the unclassified system.

The sections have not generated or needed any classified biographic files in the past 2 years. In
January 2012, EFMs in the political and economic sections with responsibilities for biographic
reporting began to enter unclassified and Sensitive But Unclassified biographic files of members
of the new government into Intellipedia, which is on the classified system. Because the embassy
has little need for classified biographic files and the Department’s current best practice is to use
Diplopedia to create a central biographic file, this recommendation is revised and reissued as
Recommendation CFR 4.



                                           32
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 3: Embassy Bangkok should submit periodic leadership analyses on notable
individuals throughout Thailand, elaborating on their motivations, alliances, and scope of
influence in the changing domestic environment. (Action: Embassy Bangkok)

Pre-CFR Status: Closed.

CFR Findings: Embassy Bangkok reported in a compliance message that the embassy had
begun submitting tailored leadership analyses on a twice-per-month basis. As described in the
CFR findings for Recommendation 2, political and economic section officers were unaware that
they were to have been doing this. End users of Embassy Bangkok’s political and economic
reporting, however, are satisfied with the amount of leadership analysis included in reporting.
Because Recommendation 2 was revised and reissued, this recommendation is closed.

Recommendation 4: Embassy Bangkok should direct employees not to transmit sensitive
information on public email accounts. (Action: Embassy Bangkok)

Pre-CFR Status: Closed.

CFR Findings: Embassy Bangkok issued a management instruction in February 2011 entitled
“Use of E-Mail on OpenNet and ClassNet Systems.” During the CFR, both the political
counselor and the economic counselor indicated that their staffs are abiding by this policy. The
information systems security officer agreed to start performing random checks to ensure this is
the case. This recommendation is closed as implemented.

Recommendation 5: Embassy Bangkok should designate appropriately the classification of
highly sensitive information that is transmitted on the OpenNet or the classified networks.
(Action: Embassy Bangkok)

Pre-CFR Status: Closed.

CFR Findings: Embassy Bangkok issued a management instruction in January 2011 entitled
“Proper Use of Classification Levels and Markings.” During the CFR, both the political
counselor and the economic counselor indicated that their staffs are abiding by the policy. The
information systems security officer agreed to start performing random checks to ensure this is
the case. This recommendation is closed as implemented.

Recommendation 6: Embassy Bangkok should reinforce emails and informal messages with
cables that report developments, analyze trends, and offer scenarios and suggestions for U.S.
policymakers. (Action: Embassy Bangkok)

Pre-CFR Status: Closed.

CFR Findings: Embassy Bangkok reported in a compliance message that most reporting was
already being submitted through the State Messaging and Retrieval Toolset system, not email.
During the CFR, political and economic staffs said that reporting is sent either in front channel
cables or in the embassy’s daily official informal message. The official informal is not
retrievable on the State Messaging and Retrieval Toolset system, depriving some policymakers
                                          33
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

and analysts who have a need to know of the full extent of post’s reporting. This
recommendation is revised and reissued as Recommendation CFR 3.

Recommendation 7: Embassy Bangkok should issue an administrative notice explaining that all
Department employees are required to establish, maintain, and annually retire official records,
including email messages that meet the definition of records as specified in Department
guidance. (Action: Embassy Bangkok)

Pre-CFR Status: Closed.

CFR Findings: Embassy Bangkok issued a management instruction in August 2010 entitled
“Records Management Responsibilities.” In January 2011, the embassy issued a management
instruction entitled “Preserving Electronic Message (E-Mail) Records.” In November 2011, the
embassy issued a staff notice entitled “Annual Review and Retirement of Records.” The three
notices address the various issues raised by this recommendation. On January 23, 2012, the
political section office management specialist issued a record email to section staff with
instructions for retiring files and converting emails into record emails. During the CFR, the
political section office management specialist advised economic section staff how to do this.
This recommendation is closed as implemented.

Recommendation 8: Embassy Bangkok should assemble 2008, 2009, and 2010 files, including
relevant emails, and require staff to maintain files and retire them annually in accordance with
Department standards. (Action: Embassy Bangkok)

Pre-CFR Status: Closed.

CFR Findings: Embassy Bangkok reported in a compliance message that it had issued
management instructions responsive to the recommendation and that the process of files
retirement was underway in December 2010. The CFR found that the political section began the
process of establishing electronic files in January 2011 but did not have functional files until the
fall of 2011. In January 2012, the political section office management specialist worked with
section staff to review the contents of each safe and to retire official records. On February 1,
2012, the political section submitted to the Department for retirement four boxes of files from
2003 to 2010. The political counselor reported that section staff members are now maintaining
files properly, including converting record emails. The economic section has functioning
electronic files but is not yet preserving record emails or retiring records. During the CFR, the
political section office management specialist advised economic section staff how to retire files
and convert emails into record emails. This recommendation is revised and reissued as
Recommendation CFR 5.

Recommendation 9: Embassy Bangkok should retain Leahy vetting files at post for 3 years for
Department-funded training, and 10 years for Defense Department-funded training. (Action:
Embassy Bangkok)

Pre-CFR Status: Closed.



                                          34
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

CFR Findings: Embassy Bangkok reported in a compliance message that the embassy and Joint
U.S. Military Assistance Group-Thai had adjusted file retention standards to bring the post into
compliance. During the CFR, the Leahy vetting point of contact displayed post’s procedures,
tracking database, and paper files, which it plans to retain for 10 years regardless of the source of
funding. Since 2010, the embassy’s Leahy vetting files have been archived as part of the
international vetting and tracking system. During the CFR, the Leahy vetting point of contact
worked with a Leahy vetting specialist in the Bureau of Democracy, Human Rights, and Labor
and agreed to start checking proposed candidates with the regional security office; enter data in
accordance with a February 2011 bulletin; and save post checks electronically. The embassy’s
Leahy vetting point of contact correctly noted that it would be much easier to conduct Leahy
vetting appropriately if the Department updated the 2007 Leahy vetting guidance and ensured
that changes relayed in the various international vetting and tracking system bulletins are
included in a timely fashion in the user manual. This recommendation is closed as implemented.

Recommendation 10: Embassy Bangkok should issue an administrative announcement setting
forth the requirements of section 620J of the Foreign Assistance Act of 1961, as amended, and of
section 8061 of the 2010 Department of Defense Appropriations Act, as they relate to vetting
trainees for programs funded by those statutes. (Action: Embassy Bangkok)

Pre-CFR Status: Closed.

CFR Findings: Embassy Bangkok issued an instruction in July 2010 entitled “Embassy
Bangkok’s Foreign Assistance Vetting Standard Operating Procedure.” On February 21, 2012,
the embassy issued an updated instruction with the same title. The instructions meet the
requirements of the recommendation. This recommendation is closed as implemented.

Recommendation 11: Embassy Bangkok should have the political officers responsible for
Leahy vetting brief the law enforcement working group on vetting requirements and procedures
to ensure that there is no confusion regarding sponsoring agencies’ responsibilities to vet training
candidates. (Action: Embassy Bangkok)

Pre-CFR Status: Closed.

CFR Findings: Embassy Bangkok reported in a compliance message that the recommended
briefing was conducted. The CFR found that agencies understand and are complying with the
embassy’s Leahy vetting procedures. The embassy’s Leahy vetting point of contact is currently
entering all records into the international vetting and tracking system that agencies submit to her
on a spreadsheet. To save duplication of effort and the Leahy vetting point of contact’s time, the
CFR team suggested that the embassy bring its standard operating procedure in line with the
practice at other posts, which allows agencies with access to the international vetting to enter
candidates into the system. This recommendation is closed as implemented.

Recommendation 12: Embassy Bangkok should assign the incoming bilateral environment,
science and technology, and health officer to complete grants training. (Action: Embassy
Bangkok)

Pre-CFR Status: Closed.
                                          35
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

CFR Findings: Embassy Bangkok reported in a compliance message that it was committed to
completing the recommended training online or through Foreign Service Institute classes in
Bangkok by June 2011. The CFR found that the bilateral environment, science, technology, and
health officer had not yet received the training. He was scheduled to complete grants training in
Bangkok through the Foreign Service Institute in February 2012, but the training course was
cancelled. This recommendation is revised and reissued as Recommendation CFR 7.

Recommendation 13: Embassy Bangkok should acquire a grants warrant for either the regional
environment, science and technology, and health hub officer or the bilateral environment,
science and technology, and health officer. (Action: Embassy Bangkok)

Pre-CFR Status: Closed.

CFR Findings: Embassy Bangkok reported in a compliance message that the new regional
environment, science and technology, and health regional officer had obtained a grants warrant
and had assumed duties at post. During the CFR, the officer showed the team his certificate of
appointment as grants officer for up to $100,000, dated August 7, 2011, valid until December 31,
2014. This recommendation is closed as implemented.

Recommendation 14: Embassy Bangkok should assign an experienced embassy economic
officer to serve as a functional mentor to the Consulate General Chiang Mai entry-level officer,
to include providing consultation with the embassy economic section when the entry-level
officer travels to Bangkok for consular consultations. (Action: Embassy Bangkok)

Pre-CFR Status: Closed.

CFR Findings: Embassy Bangkok reported in a compliance message that the officer was
assigned as recommended. During the CFR, the team learned that the previous trade and
investment officer was initially assigned as the ELO’s mentor. The deputy economic section
head became the ELO’s mentor in November 2011 and has discussed bidding, shared projects,
and cable drafting with him. Effective February 2012, the economic counselor became the
ELO’s reviewing officer. The CFR team determined that she is taking her supervisory
responsibility seriously and that the arrangement is working well for the ELO in Chiang Mai.
This recommendation is closed as implemented.

Recommendation 15: The Bureau of Educational and Cultural Affairs, in coordination with the
Bureau of East Asian and Pacific Affairs, should provide additional administrative support to the
regional English language officer based at Embassy Bangkok by adding to the locally employed
staff. (Action: ECA, in coordination with EAP)

Pre-CFR Status: Closed.

CFR Findings: In June 2011, the Office of English Language Programs in the Bureau of
Educational and Cultural Affairs increased the budget base of the Bangkok-based regional
English-language officer by $27,000 to pay for an additional person for the office. As of the time
of the CFR, the regional English-language officer had submitted the position description for
determination of the appropriate grade level of the position. The human resources office is
                                         36
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

working on that evaluation and then the position will be advertised. This recommendation is
closed as implemented.

Recommendation 16: Embassy Bangkok should require its officers and locally employed staff
serving as grant officer representatives to complete online or classroom grants training offered
by, or in coordination with, the Foreign Service Institute in addition to any supplemental grants
officer representative training provided by the embassy. (Action: Embassy Bangkok, in
coordination with FSI)

Pre-CFR Status: The embassy stated that all current officers and affected LE staff members had
been instructed to take courses offered by, or in coordination with the Foreign Service Institute,
and any supplemental training provided by the embassy. The OIG team noted that fulfillment of
this commitment could be checked in a CFR.

CFR Findings: The OIG team was provided with a list of public affairs section staff who had
completed one or more online grants training courses and the dates the courses were taken. The
staff also has access to a supplementary training manual (Bangkok public affairs grants process)
on the section’s SharePoint site. The public affairs section has also provided copies of the local
manual to staff from other sections who write grants. The local manual is, at least on the surface,
superior to the material provided in the Foreign Service Institute course; some parts of the local
manual could make an excellent supplement to Foreign Service Institute online material. This
recommendation is closed as implemented.

Recommendation 17: Embassy Bangkok should develop and implement procedures to keep the
public affairs officer and the information officer promptly apprised of emergent, potential public
affairs problems. (Action: Embassy Bangkok)

Pre-CFR Status: Closed.

CFR Findings: Both the public affairs officer and the information officer attend the weekly
country team meetings, and the Ambassador has an additional weekly special public affairs
coordinating meeting; the heads of relevant sections and agencies routinely attend the
coordinating meeting. During the CFR, the information officer was an active participant in an
emergency action committee meeting called in response to bombings by suspected Iranian
terrorists in Bangkok. The public affairs section also has a seat at the embassy’s weekly senior
staff meeting. The Ambassador made it clear in a staff notice issued in January 2011 (soon after
her arrival at post) that the public affairs section is to be made aware of developments that affect
the mission. The public affairs section is now routinely included in meetings concerning
sensitive issues. This recommendation is closed as implemented.

Recommendation 18: Embassy Bangkok should review its activities related to capturing,
translating, and archiving media accounts of the activities of embassy staff and family members,
and should cease using U.S. Government resources to find, translate, and archive media coverage
of personal, social activities. (Action: Embassy Bangkok)

Pre-CFR Status: Closed.


                                          37
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

CFR Findings: This recommendation related to activities demanded by the previous
Ambassador and his spouse. With their departure from Bangkok in 2011, the activities
ceased. Although the current Ambassador is active in both traditional and social media, her
activities in these media are appropriate and support mission goals. This recommendation is
closed as implemented.

Recommendation 19: Embassy Bangkok should create an additional International Cooperative
Administrative Support Services cost center to capture the expenses associated with the public
affairs section providing mission-wide audiovisual support services. (Action: Embassy Bangkok)

Pre-CFR Status: Closed with acceptable nonimplementation.

CFR Findings: The embassy disagreed with the recommendation, asserting that the vast
majority of the work of the audiovisual unit of the public affairs section did not involve services
to non-Department employees. The CFR team reviewed programs the audiovisual unit supported
during the past 9 months. Less than 20 percent of the staff’s time was spent on supporting non-
Department activities. The public affairs staff claimed that, since the section moved across the
street from the main chancery in 2011, the number of requests for assistance from non-
Department entities had dropped. Public affairs section managers believe the audiovisual staff
should remain section employees and not be moved to support staff funded by the International
Cooperative Administrative Support Services. This recommendation is closed on the basis of
acceptable nonimplementation.

Recommendation 20: The Bureau of Overseas Buildings Operations should give high priority to
funding and implementing the security upgrades to the Embassy Bangkok consular section in FY
2010. (Action: OBO)

Pre-CFR Status: Closed.

CFR Findings: The Bureau of Overseas Buildings Operations (OBO) awarded a post-managed
hardline project in September 2010 that was completed in the summer of 2011. Additional visa
and American citizens services interview windows were added, including a privacy booth for
visas; the makeshift booths for LE staff in the visa waiting area were improved and enclosed
within the hardline; the waiting room for American citizens services was reconfigured; and the
privacy booth in the American citizens services unit was enlarged. As part of the project, the
embassy funded the upgrades of the public restrooms and the addition of two restrooms in the
exterior waiting area. The main facilities problem in the American citizens services unit now is
that, with more windows and more business being conducted at the same time, the noise level in
the waiting room makes it difficult for customers at the windows to hear the employees. This
issue, which is separate from this recommendation, is addressed in the main section of this
report. This recommendation is closed as implemented.

Recommendation 21: Embassy Bangkok should transfer one of the five nonimmigrant visa line
officer positions to the American citizens services unit and provide for one additional
nonimmigrant visa position to serve half time in the American citizens services unit. (Action:
Embassy Bangkok)


                                          38
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Pre-CFR Status: Closed.

CFR Findings: The embassy transferred one nonimmigrant visa officer to the American citizens
services unit as recommended, and an additional officer position provides part-time support to
American citizens services and nonimmigrant visas. During the CFR inspection, the officer in
the latter position was serving for 3 months as staff aide to the Ambassador, an issue that is
addressed in the main part of this report. This recommendation is closed as implemented.

Recommendation 22: Embassy Bangkok should update the position descriptions for the locally
employed staff in both visa units and review staffing levels, reprogramming excess positions to
the American citizens services unit. (Action: Embassy Bangkok)

Pre-CFR Status: Resolved/open.

CFR Findings: The embassy reported on January 10, 2012, that implementation was complete.
No excess positions were identified for reprogramming. The OIG compliance processing was
suspended with the announcement of the CFR on October 31, 2011. The recommendation
remained open. The CFR team agreed that no excess positions should be reprogrammed.
Although the position descriptions had been rewritten, the embassy had not yet determined
whether the grade levels of the positions should be changed. Thus, the process of updating the
position descriptions was not yet complete. This recommendation is revised and reissued as
Recommendation CFR 15.

Recommendation 23: The Bureau of Consular Affairs, in coordination with the Bureau of East
Asian and Pacific Affairs and the Bureau of Human Resources, should realign Consulate General
Chiang Mai position numbers 30482026 and 10474018 so that there is a full-time, mid-level
political-economic/public diplomacy section chief and an entry-level officer who works half time
in the consular section and half time in the political-economic/public diplomacy section. (Action:
CA, in coordination with EAP and DGHR)

Pre-CFR Status: Closed.

CFR Findings: Since the 2010 inspection, EAP and HR agreed to reclassify position number
30482026 to FS-04 but to keep it part-time consular and part-time political/economic. That
officer is rated by the consular section chief in Chiang Mai and is reviewed by the consul general
in Chiang Mai. Position number 10474018 is also FS-04. That officer is rated by the consul
general in Chiang Mai and is reviewed by the economic counselor in Bangkok. (See the CFR
findings for Recommendation 14 for a further discussion of the supervisory relationship
involving this position.) The CFR team determined that the officer in position number 30482026
has to spend at least 75 percent of his time on consular work. It is no longer viable to consider
this position a half-time consular position. The duties would be distributed more effectively if
both of the positions discussed above were converted into two parts of a rotational position. This
recommendation is revised and reissued as Recommendation CFR 21.

Recommendation 24: Embassy Bangkok should request that the Bureau of Consular Affairs
replace the existing consular assistant position at Consulate General Chiang Mai with a consular
associate position as soon as possible. (Action: Embassy Bangkok)
                                         39
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Pre-CFR Status: Closed.

CFR Findings: The request was made and approved by the Department. The consulate general
was unable to fill the consular associate position, however, as there were no qualified EFMs in
the labor pool in Chiang Mai. Given the small size of the official community there, the consulate
general made a determination that the lack of qualified candidates for that position would be a
chronic problem. The consulate general decided to convert the position to a LE staff position.
This recommendation is closed on the basis of acceptable nonimplementation.

Recommendation 25: Embassy Bangkok should carry out all normal supervisory
responsibilities in the visa units, monitor performance, and document steps taken to implement
and monitor supervisory effectiveness in the appropriate performance evaluations. (Action:
Embassy Bangkok)

Pre-CFR Status: Closed.

CFR Findings: The embassy reported that all employee evaluation reports for the rating cycle
that ended in April 2011 were completed on time. Post management has continued to monitor
progress on evaluations. All visa adjudication review and accounting responsibilities were fully
up to date. The visa chief was meeting with interviewing officers as a group to discuss standards
and was counseling officers individually. This recommendation is closed as implemented.

Recommendation 26: Embassy Bangkok should undertake the necessary analyses for consular
agencies in Phuket and Pattaya and follow the instructions on the Bureau of Consular Affairs
Web site for requesting establishment for one or both consular agencies. (Action: Embassy
Bangkok)

Pre-CFR Status: Resolved/open.

CFR Findings: The embassy initially resisted the intent of this recommendation, arguing that
the recommended agencies were unnecessary and not cost effective. The embassy submitted an
analysis to the Department by cable in December 2011. In the cable, the embassy weighed the
costs and benefits of establishing and maintaining consular agencies in both locations versus
sending consular employees for routine and emergency visits to those areas. The analysis
concluded that sending employees on temporary duty “would have to increase several fold to
make consular agencies economically rational.” In addition to costs, another factor is ease of
travel to both cities. Pattaya is a 2-hour drive from Bangkok; flights from Bangkok to Phuket are
1½ hours and are scheduled almost hourly throughout the day. Thus, consular employees can go
to either location quickly in an emergency. The cable noted that an active warden system in both
Phuket and Pattaya has helped the consular section reach out to Americans in crisis situations.

In its response to the embassy analysis, the Department concluded that it did not support
establishing consular agencies in either Phuket or Pattaya.

The embassy fulfilled the recommendation that it analyze the costs and benefits of establishing
these two consular agencies and make recommendations to the Department. The CFR team
agrees with the Department’s conclusion. This recommendation is closed as implemented.
                                         40
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 27: Embassy Bangkok should apply the planning guidelines contained in 5
FAH-5 H-210 to its plans for expanding regional management support. (Action: Embassy
Bangkok)

Pre-CFR Status: Closed.

CFR Findings: The recommendation was based on Embassy Bangkok’s FY 2010 Mission
Strategic Plan goal number 7: strengthening regional management support outreach and
maintaining pace with client growth. However, expanding regional management support, such as
providing human resources support to more posts in EAP, is no longer a goal in the embassy’s
FY 2013 strategic plan. This recommendation is closed on the basis of acceptable
nonmplementation.

Recommendation 28: Embassy Bangkok should prioritize its plans for expanding regional
management support and develop a schedule to roll out these expanded services. (Action:
Embassy Bangkok)

Pre-CFR Status: Closed.

CFR Findings: Currently the embassy does not intend to expand regional management support
and does not have a regional management support goal in its FY 2013 strategic plan. This
recommendation is closed on the basis of acceptable nonimplementation.

Recommendation 29: Embassy Bangkok should coordinate with Global Financial Services
Bangkok on their training programs, to determine where there are economies of scale. (Action:
Embassy Bangkok, in coordination with GFS Bangkok)

Pre-CFR Status: Closed.

CFR Findings: The embassy, Global Financial Services Bangkok, and the Charleston Financial
Service Center discussed how to use best the facilities and the training programs of Global
Financial Services Bangkok and the Asia Regional Training Center. Financial management
training, focused primarily on LE staff from the region, is conducted at the Global Financial
Services Bangkok training facility. The Asia Regional Training Center focuses on training LE
staff from the region in customer support skills in embassy support services across the board.
The two centers coordinate training. Staff members of Global Financial Services Bangkok
conduct financial management training sessions as part of the customer support classes at the
Asia Regional Training Center. The two entities have different training goals that often
complement each other and the coordination works well. The training centers do not duplicate
services, such as negotiating hotel rates, for their students. All mission temporary duty personnel
benefit from hotel rates that the embassy negotiates centrally through the mission visitors office.
The recommendation is closed as implemented.

Recommendation 30: Global Financial Services Bangkok, in coordination with the Bureau of
Resource Management, should work with the Foreign Service Institute to develop a plan to credit
courses offered by Global Financial Services Bangkok in the Foreign Service Institute’s student


                                          41
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

training management system database. (Action: GFS Bangkok, in coordination with RM and
FSI)

Pre-CFR Status: Closed.

CFR Findings: In response to this recommendation, the Bureau of Resource Management now
provides course credits to students completing Global Financial Services Bangkok courses. The
Foreign Service Institute issues course codes for Global Financial Services Bangkok courses and
allows Global Financial Services Bangkok to enter course completions into the student training
management system database. This recommendation is closed as implemented.

Recommendation 31: Global Financial Services Bangkok should update its continuity of
operations and contingency plans, taking into account the lessons learned during the May 2010
political crisis and in coordination with Embassy Bangkok’s emergency action plan. (Action:
GFS Bangkok)

Pre-CFR Status: Closed.

CFR Findings: Global Financial Services Bangkok updates its continuity of operations and
contingency plans annually. It took into account its experiences in the May 2010 political crisis
and in the flooding in late 2011. Global Financial Services Bangkok contributed to the embassy’s
documents detailing lessons learned from both crises. The Charleston Financial Management
Center is transferring Global Financial Services Bangkok primary computers to Charleston to
ensure continuity of computer-based operations in any future crises in Thailand. This
recommendation is closed as implemented.

Recommendation 32: Global Financial Services Bangkok, in coordination with the Bureau of
Resource Management, should develop a business case for expanding services offered by its post
support unit beyond voucher processing, to determine whether there are cost benefits to offering
additional services. (Action: GFS Bangkok, in coordination with RM)

Pre-CFR Status: Closed.

CFR Findings: The Bureau of Resource Management responded to this recommendation by
noting that the post support unit in Bangkok is one of several centers that operate under the
direction of the Charleston Financial Management Center. Hence, it is not Global Financial
Services Bangkok’s role to develop a business case for expanding its services; that is the
bureau’s decision. The bureau stated that it is centralizing services where appropriate. This
recommendation is closed on the basis of acceptable nonimplementation.

Recommendation 33: The Bureau of Resource Management should perform a risk assessment
to determine the costs versus benefits of developing a Department-wide invoice tracking system.
(Action: RM)

Pre-CFR Status: Closed.



                                         42
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

CFR Findings: The Bureau of Resource Management did not agree that a formal risk
assessment was needed. The bureau is continuing to explore the feasibility of automated tracking
and routing capabilities for the domestic and overseas payments process and noted its efforts to
leverage existing investments in corporate systems and applications. The risk of double
payments for vouchers that may not be properly tracked has not been a serious problem, even
with the existence of post support unit voucher processing. This recommendation is closed on the
basis of acceptable nonimplementation.

Recommendation 34: The Bureau of Resource Management should update the position
description of the training and customer services support division chief to clarify the roles and
expectations of this position, as well as its reporting relationship to the Director of Global
Financial Services Bangkok and to the Bureau of Resource Management. (Action: RM)

Pre-CFR Status: Closed.

CFR Findings: The Bureau of Resource Management updated the position description of the
training and customer services support division chief and clarified expectations and reporting
relationships. The chief reports to the Director of Global Financial Services Bangkok and to
Charleston’s Training and Customer Service Director. This recommendation is closed as
implemented.

Recommendation 35: The Bureau of Diplomatic Security, in coordination with Embassy
Bangkok, should adjust its approval of premium travel to give the Bangkok diplomatic courier
division sufficient flexibility to make last-minute changes to mission-critical premium courier
travel. (Action: DS, in coordination with Embassy Bangkok)

Pre-CFR Status: Closed.

CFR Findings: The intent of the recommendation was to allow the courier hub director to
approve business class travel for couriers who often undertake urgent travel. At the time of the
2010 inspection, couriers encountered delays because all business class travel was signed by a
deputy assistant secretary in the Bureau of Diplomatic Security. In its response, the bureau
detailed steps to streamline and simplify communication and redelegate business class
authorization authority to the hub director. This recommendation is closed on the basis of
acceptable alternative implementation.

Recommendation 36: Embassy Bangkok should clarify the role of the community liaison office
in the emergency action plan and include a representative of the community liaison office in all
crisis management team activities, including the core emergency action committee. (Action:
Embassy Bangkok)

Pre-CFR Status: Closed.

CFR Findings: The embassy has clarified and defined the community liaison officer’s role in its
emergency action plan. The community liaison officer now participates in all crisis management
team activities, including core emergency action committee meetings. The CFR team attended an


                                          43
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

emergency action committee meeting during the inspection and observed that the community
liaison officer was present. This recommendation is closed as implemented.

Recommendation 37: Embassy Bangkok should implement procedures for notifying the
executive office whenever a rating officer fails to submit an employee evaluation report on time.
(Action: Embassy Bangkok)

Pre-CFR Status: Closed.

CFR Findings: The human resources officer confirmed that the executive office is notified
when an employee evaluation report for a direct-hire American officer is 30 days late. The
human resources office developed a tracking spreadsheet for all employee evaluation reports; a
human resources officer has been designated to monitor the system and to notify the executive
office whenever a report is late. The CFR team notes that ePerformance also reports when
evaluations are late and the officer responsible for the delay may be penalized accordingly. This
recommendation is closed as implemented.

Recommendation 38: Embassy Bangkok should update its policy on separation-for-age of
locally employed staff to reflect the Office of Overseas Employment’s policy of extending
employment only once for a one-year period after retirement. (Action: Embassy Bangkok)

Pre-CFR Status: Closed.

CFR Findings: In March 2011, the embassy updated the local compensation plan to reflect its
separation-for-age policy. The CFR team suggested and the embassy agreed to include the policy
in its local employee handbook. There are no LE staff members on extensions beyond 1 year.
Four LE staff members are currently on 1-year extensions. The embassy is tracking their status to
ensure that their extensions will not exceed 1 year. This recommendation is closed as
implemented.

Recommendation 39: Embassy Bangkok should update the employment agreements for all
official residence expense staff to reflect Department guidelines. (Action: Embassy Bangkok)

Pre-CFR Status: Closed.

CFR Findings: The contracts for the official residence expenses staff working for the
Ambassador and DCM during the time of the CFR correctly included the language reflecting
Department guidelines. This recommendation is closed as implemented.

Recommendation 40: Embassy Bangkok should list its direct charge costs for temporary duty
visitors and publish the policy on the Department’s eCountry clearance Web site. (Action:
Embassy Bangkok)

Pre-CFR Status: Closed.




                                         44
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

CFR Findings: The embassy has updated its policy on temporary duty visitors to include direct
charge costs for supporting such visitors. This policy was added to the embassy Web site during
the CFR. This recommendation is closed as implemented.

Recommendation 41: Embassy Bangkok should discontinue the practice of using the Class B
cashier as a bank to cash locally employed staff retiree U.S. dollar annuity checks and instruct
Global Financial Services Bangkok to make electronic payments to these retirees. (Action:
Embassy Bangkok)

Pre-CFR Status: Closed.

CFR Findings: Since May 1, 2011, retired LE staff who are members of the former Civil
Service retirement plan no longer have permission for accommodation exchange through the
embassy cashier. In some cases, the embassy has established direct electronic deposit of
retirement payments for those with local bank accounts. Retirees can also cash retirement checks
at local banks. This recommendation is closed as implemented.

Recommendation 42: Embassy Bangkok should write and implement procedures for bulk-
funding blanket purchase agreement and purchase card purchases. (Action: Embassy Bangkok)

Pre-CFR Status: Closed.

CFR Findings: The embassy has completed implementation of the Department’s Integrated
Logistics Management System. Blanket purchase agreements are now bulk-funded using the
integrated logistics management system capabilities. Purchase card are bulk-funded, as needed
using manual procedures. This recommendation is closed as implemented.

Recommendation 43: Embassy Bangkok should seek reimbursement for the representational
claims that do not meet the Department of State Standardized Regulations for allowable
expenses. (Action: Embassy Bangkok)

Pre-CFR Status: Closed.

CFR Findings: OIG files from the 2010 inspection contained copies of 15 vouchers filed in
Bangkok that did not meet requirements for allowable representational claims. The former
Ambassador provided reimbursement for three events that did not meet criteria. Twelve other
vouchers were missing information such as guest lists. The claimants corrected the vouchers.
The CFR team reviewed a sample of representational vouchers and found no errors. This
recommendation is closed as implemented.

Recommendation 44: Embassy Bangkok should ratify the two unauthorized commitments made
in connection with representation events in 2008. (Action: Embassy Bangkok)

Pre-CFR Status: Closed




                                          45
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

CFR Findings: The embassy ratified one commitment that was under $1000. The Bureau of
Administration’s Office of the Procurement Executive held that the other commitment was not
unauthorized and did not need ratification. This recommendation is closed as implemented.

Recommendation 45: The Bureau of East Asian and Pacific Affairs, in coordination with the
Bureau of Resource Management and the Bureau of Overseas Buildings Operations, should
determine whether the embassy improperly funded repairs and improvements to the chief of
mission residence. (Action: EAP, in coordination with RM and OBO)

Pre-CFR Status: Resolved/open.

CFR Findings: EAP and OBO agreed that the embassy should not have funded repairs and
improvements to the chief of mission residence from the embassy’s program allotment. Embassy
Bangkok said that the embassy and OBO were unclear about how to fund repairs and
improvements to the residence as it had been a short-term leased property for 60 years.
According to embassy staff, emails over the years between the embassy and OBO indicated that
repairs had been paid for with program funds. Given that the U.S. Government pays $1,500
annually in rent to the Thai Government, the embassy did not believe it prudent to approach the
Thai Government to pay for repairs and improvements that cost $74,000. In 2011, OBO changed
the status of the lease to long term. This will allow future repairs and improvements to be paid
with OBO funds. This recommendation is closed as implemented.

Recommendation 46: Embassy Bangkok, in coordination with the Bureau of East Asian and
Pacific Affairs and the Bureau of Overseas Buildings Operations, should make necessary
adjustments to correct the funding of any repairs and improvements to the chief of mission
residence that were improperly charged. (Action: Embassy Bangkok, in coordination with EAP
and OBO)

Pre-CFR Status: Closed.

CFR Findings: As noted in the CFR findings for Recommendation 45, OBO has converted the
lease for the chief of mission residence from short term to long term. OBO will thus be
responsible for funding repairs and improvements to the residence. To rectify the situation
identified by the 2010 team, OBO shifted funds into the embassy’s program account to cover the
costs of the repairs and improvements in FYs 2007-08. This recommendation is closed as
implemented.

Recommendation 47: Embassy Bangkok should cease using program funds for work done on
the chief of mission residence and should instruct the single real property manager to review the
requirements and coordinate the funding of routine and special maintenance and repair projects
with the Bureau of Overseas Buildings Operations. (Action: Embassy Bangkok, in coordination
with OBO)

Pre-CFR Status: Closed.

CFR Findings: The CFR findings for Recommendations 45 and 46 demonstrate that this
recommendation was closed when the property was converted to a long-term lease, making OBO
                                         46
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

responsible for maintenance and repair funds. This recommendation is closed on the basis of
alternative implementation.

Recommendation 48: Embassy Bangkok should revise the mission-wide motor vehicle policy
to clarify the chief of mission’s authority and responsibilities for all U.S. Government-owned
vehicles in Thailand. (Action: Embassy Bangkok)

Pre-CFR Status: Closed.

CFR Findings: The embassy issued a mission transportation policy on July 8, 2011, that
clarifies the Chief of Mission’s authority and responsibilities for all U.S. Government-owned
vehicles in Thailand. This recommendation is closed as implemented.

Recommendation 49: Embassy Bangkok should establish and implement a corrective action
plan for all U.S. Government-controlled residential pools, using Department of State guidelines
for pool safety. (Action: Embassy Bangkok)

Pre-CFR Status: Closed.

CFR Findings: The embassy installed depth markers, locking gates, and “no diving” signs at all
pools, including those at the Ambassador’s residence, the DCM’s residence, and U.S.
government-owned apartment buildings. The embassy followed OBO’s Office of Safety, Health,
and Environmental Management guidance to ensure the pools meet Department guidelines. This
recommendation is closed as implemented.

Recommendation 50: Embassy Bangkok, in coordination with the Bureau of Overseas
Buildings Operations, should conduct a cost-benefit analysis of maintaining all 18 leases on the
Tarn Dong Village compound in Chiang Mai. (Action: Embassy Bangkok, in coordination with
OBO)

Pre-CFR Status: Closed.

CFR Findings: Embassy Bangkok and OBO conducted the analysis and determined that leasing
these properties should be discontinued. The leases were terminated and new residences were
leased in Chiang Mai. This recommendation is closed as implemented.

Recommendation 51: Embassy Bangkok should provide refresher training to the information
management staff on safeguarding personally identifiable information. (Action: Embassy
Bangkok)

Pre-CFR Status: Closed.

CFR Findings: The head of the information systems center signed a memo August 17, 2010,
listing the 14 information systems center staff members who attended a briefing she gave on
personally identifiable information on June 2, 2010. This recommendation is closed as
implemented.


                                         47
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 52: Embassy Bangkok should formulate and institute the information
technology development project lifecycle in accordance with Department guidelines. (Action:
Embassy Bangkok)

Pre-CFR Status: Closed.

CFR Findings: The embassy issued a detailed Configuration Management Plan in July 2010,
and the OIG team verified that the embassy is complying with the plan. This recommendation is
closed as implemented.

Recommendation 53: Embassy Bangkok should establish procedures for the local information
technology change control board to review and locally approve software application
development implementation. (Action: Embassy Bangkok)

Pre-CFR Status: Closed.

CFR Findings: The Bangkok Local Information Technology Change Control Board has been
established and its charter, along with standard operating procedures, is located in the embassy
SharePoint site. This recommendation is closed as implemented.

Recommendation 54: Embassy Bangkok should establish and enforce written procedures for
reviewing and approving access control to the OpenNet network. (Action: Embassy Bangkok)

Pre-CFR Status: Closed.

CFR Findings: The embassy amended its application form for OpenNet network access to
require embassy badge information before the form is approved. This recommendation is closed
as implemented.

Recommendation 55: Embassy Bangkok should create and document a standardized process to
manage information technology service requests and support resources. (Action: Embassy
Bangkok)

Pre-CFR Status: Closed.

CFR Findings: The embassy reported that it uses eServices to process and manage information
technology services and evaluates service using the Collaborative Management Initiative
Performance Metrics Dashboard. An embassy notice was issued in March 2011 reminding users
of requirements. This recommendation is closed on the basis of acceptable alternative
implementation.

Recommendation 56: Embassy Bangkok should complete and test information technology
contingency plans for the OpenNet and the classified networks and develop a process for
periodically updating the plans as systems environments and resources change. (Action:
Embassy Bangkok)

Pre-CFR Status: Closed.
                                         48
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



CFR Findings: The embassy developed information technology contingency plans for OpenNet
and ClassNet, and an exercise was held successfully in January 2012 to test the plans. The plans
were posted on the respective intranet sites. This recommendation is closed as implemented.

Recommendation 57: Embassy Bangkok should align the information technology contingency
plan with Embassy Bangkok’s emergency action plan, and update the information technology
section of the emergency action plan. (Action: Embassy Bangkok)

Pre-CFR Status: Closed.

CFR Findings: The embassy certified the recommended actions as of March 11, 2011. This
recommendation is closed as implemented.

Recommendation 58: Embassy Bangkok should establish viable offsite backup storage for the
OpenNet and unclassified backup media. (Action: Embassy Bangkok)

Pre-CFR Status: Closed.

CFR Findings: (b) (5)
                               This compound is located 10 miles from the main chancery.
This recommendation is closed as implemented.

Recommendation 59: Embassy Bangkok should require that only U.S. citizens handle OpenNet
and unclassified backup media when transporting it between sites. (Action: Embassy Bangkok)

Pre-CFR Status: Closed, with acceptable alternative implementation.

CFR Findings: The embassy argued that the transportation could be handled with appropriate
precautions by LE staff. It cited 12 FAM 622.1 -7 b. (1), which provides for review and approval
by the regional security officer of procedures for transporting Sensitive But Unclassified
material. The regional security officer did the review and issued a memorandum on March 11,
2011, approving transport of the media by LE staff. This recommendation is closed on the basis
of acceptable alternative implementation.

Recommendation 60: Embassy Bangkok should annually review, update, and reissue its local
employee handbook. (Action: Embassy Bangkok)

Pre-CFR Status: Closed.

CFR Findings: The local employee handbook was updated and reissued in January 2011. The
CFR team notes that there is no requirement to update the entire handbook annually. The
compensation plan, however, must be updated annually and included in the handbook. The
compensation plan was updated in January 2012. This recommendation is closed as
implemented.



                                         49
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 61: Embassy Bangkok should develop and publish guidelines for official
residence expense vouchers so that all costs are included in the monthly voucher, allowing the
embassy to determine the true cost of maintaining official residences. (Action: Embassy
Bangkok)

Pre-CFR Status: Closed.

CFR Findings: The embassy has published the guidelines and developed a form that captures
the monthly cost of maintaining official residences. The financial management staff enters the
data, based on vouchers and bills. The form, introduced in July 2011, is located on the Financial
Management Center Web page. This recommendation is closed as implemented.

Recommendation 62: Embassy Bangkok should create and implement a standard operating plan
to maintain accurate records on acceptance of all gifts by embassy employees including
procedures to determine whether a gift is from a prohibited source, ascertain the fair market
value of a gift, and record the proper disposition of a gift. (Action Embassy Bangkok)

Pre-CFR Status: Closed.

CFR Findings: The embassy issued a management instruction on gifts policies in November
2010. Updated instructions were issued in March 2011 and February 2012. The gifts officer in
the general services office answers calls about what gifts may be received and what events staff
may attend. This recommendation is closed as implemented.

Recommendation 63: Embassy Bangkok should seek a formal opinion from the Office of the
Legal Adviser as to the applicability of the Code of Federal Regulations provisions pertaining to
the Standards of Ethical Conduct for Employees of the Executive Branch to the two training
opportunities afforded to the Ambassador’s family member. (Action: Embassy Bangkok, in
coordination with L)

Pre-CFR Status: Resolved/open.

CFR Findings: In September 2011, the Office of the Legal Adviser issued an opinion in an
email to the former Ambassador. The legal opinion stated that the questioned conduct regarding
the Ambassador’s spouse attending training was permissible under applicable rules and
regulations. This recommendation is closed as implemented.

Recommendation 64: Embassy Bangkok should update and publish its mission travel policy, to
include the latest guidelines on temporary duty travel – especially as it prohibits the use of
business class accommodation for rest and relaxation and emergency visitation travel – including
a section on any unique requirements for rest and relaxation travel to and from Chiang Mai.
(Action: Embassy Bangkok)

Pre-CFR Status: Resolved/open.

CFR Findings: Before the CFR was underway, the embassy provided the requested copy of its
travel policy. The CFR notification was issued before the OIG review could close the
                                         50
                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

recommendation. The mission travel policy, issued February 1, 2012, was appropriate and
addressed the issues identified by the OIG team in 2010. This recommendation is closed as
implemented.

Recommendation 65: Embassy Bangkok should develop and enforce procedures to get advance
approval of official travel from the appropriate entity and to fully document it in the travel
voucher files. (Action: Embassy Bangkok)

Pre-CFR Status: Closed.

CFR Findings: The embassy’s mission travel policy, issued February 1, 2012, includes a section
with the procedures for advance approval of official travel. The CFR team reviewed a sample of
recent travel vouchers and found no authorizations without advance approval from the regional
bureau. This recommendation is closed as implemented.

Recommendation 66: Embassy Bangkok should carry out daily adjudication reviews of
nonimmigrant visa issuances and refusals, and should document any deficiencies in this
procedure in the annual certification of consular management controls cable and in the
appropriate officers’ performance evaluations. (Action: Embassy Bangkok)

Pre-CFR Status: Closed.

CFR Findings: The embassy reported implementation of the recommendation in December
2010. A sample by the CFR team of recent adjudication reviews confirms that the embassy is in
compliance. This includes the DCM, who reviews cases adjudicated by the consul general. This
recommendation is closed as implemented.




                                        51
                            SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Appendix II: Status of 2010 Inspection Informal
Recommendations
Informal Recommendation 1: Embassy Bangkok should convene the economic cluster meeting
every 2 weeks, rather than monthly, to improve coordination of economic activities.

CFR Findings: The economic cluster, including economic section LE staff, meets monthly for
in-depth discussions of joint strategies and tactics. The economic officer from Consulate General
Chiang Mai participates via digital video teleconference. Participants receive an agenda in
advance of the meeting and minutes after the meeting. The DCM also meets every 2 weeks with
core economic staff, including the economic counselor and the heads of the Foreign Agricultural
Service, the Foreign Commercial Service, and the U.S. Agency for International Development.
This informal recommendation is closed on the basis of acceptable alternative compliance.

Informal Recommendation 2: Embassy Bangkok, in reports to U.S. trade offices, should
distinguish more carefully Thai Government intentions from its actions on intellectual property
rights protection when suggesting U.S. trade policy responses.

CFR Findings: Thai Government performance remains uneven in strengthening intellectual
property rights protection. Although Thai Government officials continue to express their
intention to advance legislation, it has not been passed. Policymakers and analysts indicated to
the team that embassy reporting now clearly delineates government intentions from government
actions. This informal recommendation is closed as implemented.

Informal Recommendation 3: Embassy Bangkok should have the public affairs section work
with the American Corners to encourage continued programming during those periods when the
host universities are on recess and should not limit the audiences to the students and staff of the
host institutions.

CFR Findings: The public affairs section has worked actively with American Corners directors
and staff to increase both the number of digital video conferences and the volume of
programming held during academics breaks on the campuses on which the Corners are located.
A 4-day American Corner conference in Chiang Mai held during the course of the CFR devoted
several sessions to these issues, the result of which should be even more activity in both areas.
This informal recommendation is closed as implemented.

Informal Recommendation 4: Embassy Bangkok should have the public affairs section work
with the American Corners to pursue opportunities for digital videoconferences on approved
themes with speakers who are available in the region in a similar time zone.

CFR Findings: The response to Informal Recommendation 3 also covers this informal
recommendation. This informal recommendation is closed as implemented.

Informal Recommendation 5: Embassy Bangkok, in addition to using traditional methods to
publicize job opportunities for eligible family members, should conduct outreach to the officers
in Thai language classes on consular associate employment opportunities.
                                          52
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED



CFR Findings: The consular section is working with the human resources office and the
community liaison office on identifying employees who are coming to work in the embassy, and
is working with the community liaison office on contacting EFMs of those employees. They
explain to those EFMs the employment opportunities in the consular sections and the need for
consular training while the EFM is in Washington. This informal recommendation is closed as
implemented.

Informal Recommendation 6: Embassy Bangkok should reprogram the consul general’s eligible
family member office management specialist position to be half-time biometrics clerk and half-
time secretary-receptionist, and fill the position.

CFR Findings: Consular managers explained to the CFR team that having the EFM capture
fingerprints would add a bottleneck to the intake process. It would require processing of visa
applicants at another window, leading to another line, and the EFMs in the consular section
usually do not speak Thai. Thus, the fingerprinting process would take longer and slow down the
flow of visa processing. ELOs told the team that they can talk to the applicants and establish a
rapport with them while capturing one fingerprint to verify identity. Such verification is
necessary when an LE staff member has captured the 10 fingerprints. The officers and the LE
staff agreed that using LE staff for fingerprinting was more efficient than using EFMs for that
function. This informal recommendation is closed on the basis of acceptable nonimplementation.

Informal Recommendation 7: Embassy Bangkok should include critical locally employed staff
responsibilities in the Chiang Mai consular eligible family member position description and
ensure that the eligible family member carries out those responsibilities regularly.

CFR Findings: The position in question could not be filled by an EFM as there were no
qualified applicants in Chiang Mai. The position has been converted to an LE staff member
position, as explained further in the CFR findings to Recommendation 24 in Appendix I. This
informal recommendation is closed on the basis of acceptable nonimplementation.

Informal Recommendation 8: Embassy Bangkok should monitor consular staffing levels and
workload growth in Chiang Mai and use the Consular Package to request an additional locally
employed staff position when the demand for nonimmigrant visas shows a sustained increase.

CFR Findings: Consulate General Chiang Mai said in its most recent consular package,
prepared in December 2011, that it did not need an additional LE staff member position in the
consular section at this time, but that the most critical staffing need has been to fill a position that
was meant for EFMs and has now been converted to a LE staff member position. The consulate
general is in the process of hiring for that position. The background on that position is described
in the CFR findings for Recommendation 24 in Appendix I. This informal recommendation is
closed as implemented.

Informal Recommendation 9: Embassy Bangkok should assign the design and maintenance of
the consular rotational program to the consul general.



                                           53
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

CFR Findings: The consul general, who arrived in Bangkok in August 2011, has been
reviewing the rotational schedule of officers in consultation with the chiefs of the visa unit and
the American citizens services unit to ensure appropriate balancing of staffing with workloads.
This informal recommendation is closed as implemented.

Informal Recommendation 10: Embassy Bangkok should coordinate with Consulate General
Chiang Mai to establish policies and procedures for handling applicants who have not completed
all the fields on the new, electronic nonimmigrant visa application, to ensure consistency and
good public relations.

CFR Findings: The embassy and consulate general consular section managers are coordinating
closely on these policies and procedures, which are now essentially the same in both posts. In
December 2011, the visa chief in Bangkok visited Chiang Mai to review visa operations in the
consulate general and to deepen the coordination. This informal recommendation is closed as
implemented.

Informal Recommendation 11: Embassy Bangkok should return issued immigrant visas by
courier or mail, so that applicants do not have to visit the consular section a second time.

CFR Findings: Consular managers have been reluctant to implement this recommendation.
They told the CFR team that, if immigrant visa documents were lost in the mail, it would be
difficult for the applicants and for the embassy to replace those documents. The Thai postal
system has been delivering U.S. passports and passports with nonimmigrant visas for years and
has not had problems with lost documents. Consular managers should practice risk management
rather than risk avoidance, as the workload savings by mailing the immigrant visas outweigh the
minimal risks of losing documents in the mail. This informal recommendation is revised and
reissued as Recommendation CFR 14.

Informal Recommendation 12: Embassy Bangkok should require immigrant visa applicants to
present updated or supplementary documentation in person only when an additional interview is
essential in order to determine visa eligibility.

CFR Findings: According to consular managers, immigrant visa applicants have the option of
mailing their updated or supplementary documents to the consular section or bringing them
personally to the section. Giving the applicants options does not provide a workload savings for
the consular section, as too many applicants prefer the personal appearance option. As noted in
the CFR findings on Informal Recommendation 11, the Thai postal service has a good record of
not losing documents. The consular section needs to be directive with immigrant visa applicants
about using the mail system to return documents. This informal recommendation is revised and
reissued as Recommendation CFR 13.

Informal Recommendation 13: Embassy Bangkok should amend its Web site and other outreach
to require appointments for routine passport and notarial services.

CFR Findings: Subsequent to the 2010 inspection, the Bureau of Consular Affairs mandated all
consular sections to establish appointment systems for American citizens services by a deadline
of September 1, 2011. The consular section in Bangkok established an appointment system for
                                          54
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

American citizens services in September 2011. Consular managers saw benefits from the system,
including reduced wait times and better balancing of work and staffing throughout workdays.
The section has not benefited as much as it could from the appointment system, however, as
consular employees have been allowing Americans without appointments to wait until others
have been served. Without a continuing robust outreach program to explain the appointment
system, more Americans have been showing up without appointments. This informal
recommendation is revised and reissued as Recommendation CFR 11.

Informal Recommendation 14: Embassy Bangkok should adapt its existing consular telephone
system or procure an alternate system, to redirect routine American citizens services queries to
automated response scripts and to refer visa phone calls to the call center or to a case-specific
public inquiry number.

CFR Findings: The consular section had been reviewing a phone tree plan in 2011, but the
floods diverted the attention of the staff. After that a new telephone system was installed in the
mission. The consular managers intend to pursue this issue. This informal recommendation is
revised and reissued as Recommendation CFR 12.

Informal Recommendation 15: Embassy Bangkok should set up a regular meeting schedule for
the fraud prevention manager and the assistant regional security officer for investigations, over
and above the weekly general staff meeting, and they should take advantage of Bureau of
Diplomatic Security funding to travel in tandem as frequently as feasible.

CFR Findings: The fraud prevention manager and the assistant regional security officer-
investigations have been meeting weekly to discuss fraud trends. They conducted a joint training
program in Vientiane, Laos, in September 2011. The fraud prevention manager has sufficient
funds for travel and is prohibited from using funds from the Bureau of Diplomatic Security for
travel. This recommendation is closed on the basis of partial implementation.

Informal Recommendation 16: Embassy Bangkok should request that Global Financial
Services Bangkok modify the “365 Reports Submitted for Calendar Year” to reflect the class B
cashier codes that have been closed.

CFR Findings: This informal recommendation is no longer valid. In January 2012, Embassy
Bangkok stopped using the former automated cashiering system that generated the old cash
reconciliation reports and started using the Bureau of Resource Management’s new cashiering
system, the Consolidated Overseas Accountability Support Tool. This informal recommendation
is closed on the basis of acceptable nonimplementation.

Informal Recommendation 17: Global Financial Services Bangkok management should
establish a policy regarding the issuance of BlackBerrys and other portable electronic devices.

CFR Findings: Embassy Bangkok issued a management instruction in October 2010 entitled
“State OpenNet Blackberry Program.” The instruction included the business need criteria for a
user to be issued a BlackBerry and the procedures for requesting one. This recommendation is
closed as implemented.


                                          55
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 18: Embassy Bangkok should prepare emergency travel
authorizations for all American employees upon arrival at post.

CFR Findings: Embassy Bangkok currently uses the Department’s Crisis Management
Evacuation Management System. The system coordinates and plans for overseas personnel draw-
downs and evacuations. The evacuation system allows authorized users to access emergency
contact information. It tracks arrival and departure status during a crisis, creates and prints travel
authorizations, and records where personnel are located at a mission or away from post. The
information can be viewed simultaneously by the embassy and the Department. This
recommendation is closed on the basis of acceptable alternative implementation.

Informal Recommendation 19: Embassy Bangkok should provide the CLO coordinator and
assistant coordinators with the means to conduct official communication with the embassy from
their homes.

CFR Findings: Post has issued BlackBerry devices to employees of the community liaison
office, which will allow them to conduct official communications from their homes in crises.
This recommendation is closed as implemented.

Informal Recommendation 20: Embassy Bangkok should hold a crisis management workshop
as soon as possible.

CFR Findings: The Foreign Service Institute conducted a crisis management exercise at
Embassy Bangkok with members of the emergency action committee in March 2010. The
Foreign Service Institute is scheduled to hold another such exercise at the embassy in March
2012. This recommendation is closed as implemented.

Informal Recommendation 21: Embassy Bangkok should conduct a workshop for eligible
family members who are interested in working, to make them aware of the application process
and the availability of jobs both within the mission and on the local economy, once the de facto
bilateral work agreement is in place.

CFR Findings: Shortly before the CFR, Embassy Bangkok held a coffee for EFMs specifically
to discuss internal employment opportunities. The human resources office and community
liaison office sponsor at least two workshops annually that focus on family member employment.
Embassy Bangkok has 55 of 87 EFM positions filled. Nine candidates are undergoing a security
clearance process. Regarding external employment, there is still no bilateral work agreement.
After many years of pursuing this objective, Embassy Bangkok has abandoned the goal of
having a bilateral work agreement with Thailand. The Royal Thai Government does not
authorize diplomats from any countries, including family members, to work locally. This
recommendation is closed on the basis of acceptable partial implementation.

Informal Recommendation 22: Embassy Bangkok should do a cost/benefit analysis for charging
temporary duty visitors for the indirect cost of delivering International Cooperative
Administrative Support Services.



                                          56
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

CFR Findings: The embassy did not conduct a formal cost/benefit analysis. The financial
management officer told the CFR team that the costs for temporary duty staff are captured in
base budgets. Embassy Bangkok captures support costs for temporary duty personnel with
sponsoring agencies, counting them toward the cumulative workload counts for each agency. For
nonsponsoring agencies, costs are captured using the International Cooperative Administrative
Support Services temporary duty module. This recommendation is closed on the basis of
acceptable nonimplementation.

Informal Recommendation 23: Embassy Bangkok should formulate and disseminate a policy
setting a minimum threshold for claims for reimbursement for vouchers except at the end of the
fiscal year.

CFR Findings: Embassy Bangkok issued a management instruction in February 2012 entitled
“Representational Allowances - Policy and Procedures” that included the following statement:
“Smaller claims of $10 or less per voucher should be combined on one form for reimbursement
claim at the end of the month.” This recommendation is closed as implemented.

Informal Recommendation 24: Embassy Bangkok should develop procedures to send copies of
utility bills to tenant agencies based in Chiang Mai in a timely manner and on a regular basis
after receipt of the bills. In addition, Embassy Bangkok should issue a policy or management
notice explaining the process of paying utility bills, and how often agencies can expect to receive
copies.

CFR Findings: Embassy Bangkok is now sending copies of the certified vouchers to the
agencies by email or interoffice mail so they will have a record of the payment. The embassy has
posted on its intranet site the process for paying utility bills for agencies located outside
Bangkok. This recommendation is closed as implemented.

Informal Recommendation 25: Embassy Bangkok should dispose of excess information
management equipment in the OpenNet and the classified server rooms.

CFR Findings: The CFR team confirmed that the excess equipment has been disposed of in
accordance with regulations. This recommendation is closed as implemented.

Informal Recommendation 26: Embassy Bangkok should update systems documentation and
keep the documents centralized and current.

CFR Findings: The embassy has updated and centralized the storage of all systems
documentation in the embassy’s SharePoint site. This recommendation is closed as implemented.

Informal Recommendation 27: Embassy Bangkok should add an Equal Employment
Opportunity segment to its newcomer orientations.

CFR Findings: Embassy Bangkok added Equal Employment Opportunity segments to its
weekly newcomer orientations. The mission also provides Equal Employment Opportunity
training for American and local staff on a regular basis. The CFR team notes that newcomer


                                          57
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

orientations are weekly and are not limited to three times annually as stated in the 2010 report.
This recommendation is closed as implemented.

Informal Recommendation 28: Embassy Bangkok should include Equal Employment
Opportunity materials in its weekly orientation sessions for new employees.

CFR Findings: Embassy Bangkok’s Equal Employment Opportunity counselors have provided
the human resources office with handouts on Equal Employment Opportunity law. Additionally,
the counselors are in the process of creating a brochure that provides Equal Employment
Opportunity information to all staff in the mission. This recommendation is closed as
implemented.

Informal Recommendation 29: Embassy Bangkok should provide Equal Employment
Opportunity and harassment training to its locally employed staff.

CFR Findings: On February 2, 2012, Embassy Bangkok’s Equal Employment Opportunity
counselors provided four sessions that provided in-depth information to American and LE staff.
A total of 115 embassy staff members participated. The counselors coordinated these briefings
with the Office of Civil Rights. This recommendation is closed as implemented.

Informal Recommendation 30: Embassy Bangkok should issue an administrative notice
explaining the limitations on contributions to fund or replenish informal office benevolence or
celebratory arrangements, and clarifying that all donations are voluntary.

CFR Findings: The embassy issued an email to all mission personnel on this subject during the
CFR. This recommendation is closed as implemented.

Informal Recommendation 31: Embassy Bangkok should issue an administrative notice
explaining timekeeping procedures and policies.

CFR Findings: Embassy Bangkok’s Policy and Procedures for Timekeeping states that
timekeepers shall not post their own time and attendance data. It also states that the payroll
liaison or his/her designee at the Financial Management Center will report the timekeeper’s time
and attendance on the time and attendance system. Embassy Bangkok issued an administrative
notice explaining its timekeeping procedures and polices during the CFR visit. This
recommendation is closed as implemented.

Informal Recommendation 32: Embassy Bangkok should develop a system for managing the
expendable property issued to and then returned by the mission visitors office.

CFR Findings: The embassy has implemented the Integrated Logistics Management System.
The system ensures that items removed from inventory for visits, training, and other
requirements will be re-entered into the expendable supplies inventory when there are returned.
This recommendation is closed on the basis of acceptable alternative implementation.




                                          58
                              SENSITIVE BUT UNCLASSIFIED
    SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219




    SENSITIVE BUT UNCLASSIFIED
